<html>
<title> - FEMA'S FISCAL YEAR 2011 PRIORITIES AND BEYOND: ALIGNING BUDGET, MISSION, AND VISION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
                FEMA'S FISCAL YEAR 2011 PRIORITIES AND BEYOND: 
                   ALIGNING BUDGET, MISSION, AND VISION
=======================================================================

                                HEARING

                               before the

               SUBCOMMITTEE ON EMERGENCY COMMUNICATIONS,
                       PREPAREDNESS, AND RESPONSE

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 27, 2010

                               __________

                           Serial No. 111-64

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 




      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________

                        U.S. GOVERNMENT PRINTING OFFICE
62-541 PDF                    WASHINGTON : 2011
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e285928da2819791968a878e92cc818d8fcc">[email&#160;protected]</a>  






                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Loretta Sanchez, California          Peter T. King, New York
Jane Harman, California              Lamar Smith, Texas
Peter A. DeFazio, Oregon             Mark E. Souder, Indiana
Eleanor Holmes Norton, District of   Daniel E. Lungren, California
    Columbia                         Mike Rogers, Alabama
Zoe Lofgren, California              Michael T. McCaul, Texas
Sheila Jackson Lee, Texas            Charles W. Dent, Pennsylvania
Henry Cuellar, Texas                 Gus M. Bilirakis, Florida
Christopher P. Carney, Pennsylvania  Paul C. Broun, Georgia
Yvette D. Clarke, New York           Candice S. Miller, Michigan
Laura Richardson, California         Pete Olson, Texas
Ann Kirkpatrick, Arizona             Anh ``Joseph'' Cao, Louisiana
Ben Ray Lujan, New Mexico            Steve Austria, Ohio
William L. Owens, New York
Bill Pascrell, Jr., New Jersey
Emanuel Cleaver, Missouri
Al Green, Texas
James A. Himes, Connecticut
Mary Jo Kilroy, Ohio
Dina Titus, Nevada
Vacancy
                    I. Lanier Avant, Staff Director
                     Rosaline Cohen, Chief Counsel
                     Michael Twinchek, Chief Clerk
                Robert O'Connor, Minority Staff Director
                                 ------                                

  SUBCOMMITTEE ON EMERGENCY COMMUNICATIONS, PREPAREDNESS, AND RESPONSE

                Laura Richardson, California, Chairwoman
Eleanor Holmes Norton, District of   Mike Rogers, Alabama
    Columbia                         Pete Olson, Texas
Henry Cuellar, Texas                 Anh ``Joseph'' Cao, Louisiana
William L. Owens, New York           Michael T. McCaul, Texas
Bill Pascrell, Jr., New Jersey       Peter T. King, New York (ex 
Emmanuel Cleaver, Missouri               officio)
Dina Titus, Nevada
Bennie G. Thompson, Mississippi (ex 
    officio)
                      Stephen Vina, Staff Director
                          Ryan Caldwell, Clerk
               Amanda Halpern, Minority Subcommittee Lead



                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Laura Richardson, a Representative in Congress From 
  the State of California, and Chairwoman, Subcommittee on 
  Emergency Communications, Preparedness, and Response...........     1
The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama, and Ranking Member, Subcommittee on Emergency 
  Communications, Preparedness, and Response.....................     3
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security..............................................     4

                               Witnesses

Mr. W. Craig Fugate, Administrator, Federal Emergency Management 
  Agency, Department of Homeland Security:
  Oral Statement.................................................     6
  Prepared Statement.............................................     6

                                Appendix

Questions From Chairwoman Laura Richardson.......................    35
Questions From Chairman Bennie G. Thompson.......................    39
Questions From Ranking Member Peter T. King......................    41
Questions From Honorable William L. Owens........................    44


    FEMA'S FISCAL YEAR 2011 PRIORITIES AND BEYOND: ALIGNING BUDGET, 
                          MISSION, AND VISION

                              ----------                              


                        Tuesday, April 27, 2010

             U.S. House of Representatives,
                    Committee on Homeland Security,
   Subcommittee on Emergency Communications, Preparedness, 
                                              and Response,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:04 p.m., in 
Room 311, Cannon House Office Building, Hon. Laura Richardson 
[Chairwoman of the subcommittee] presiding.
    Present: Representatives Richardson, Thompson, Cuellar, 
Pascrell, Cleaver, Titus, Rogers, Olson, and Cao.
    Ms. Richardson [presiding]. The Subcommittee on Emergency 
Communications, Preparedness, and Response will come to order.
    The subcommittee is meeting today to receive testimony on 
``FEMA's 2011 Priorities and Beyond: Aligning the Budget, 
Mission, and Vision.'' I will now recognize myself for an 
opening statement.
    I would urge both myself and all my colleagues--my 
understanding from staff, we might have votes coming up 
somewhere around the 3 o'clock hour, so if we can try and get 
through as much as possible, I think Mr. Fugate would 
appreciate that, as well.
    Good afternoon. I want to welcome our witness to today's 
hearing, the Honorable Craig Fugate, administrator of FEMA. I 
would like to thank the administrator for working with us to 
reschedule this hearing in light of some of the weather and 
other issues that we had here in Washington. You were very kind 
to work with us and to come and discuss the budget request 
before us today for FEMA.
    My colleagues and I on this subcommittee look forward to 
working with you.
    Before we get started, I would like to take a moment to 
pass along my sincerest condolences to the good people of 
Mississippi, including many in the Chairman's district, and the 
neighboring States that were impacted by last weekend's 
tornado. My thoughts and prayers go out to all the families 
affected by the devastating storms, and we will make sure that 
we get them and you all the help that you absolutely need.
    Given the current economic environment, I was pleased to 
see the administration requested $10.5 billion for FEMA in full 
year 2011, an increase of $168 million for the full year 2010 
enacted level.
    Over the last several months, we have witnessed the 
destruction caused by some of the most powerful earthquakes to 
hit our neighbors to the south. Not only do these disasters 
serve as humbling reminders of the massive responsibilities 
that come with your job, they require us to ask whether FEMA 
has the resources to carry out its mission here at home today.
    While I am--excuse me--while I am supportive of the overall 
proposed budget increase for FEMA, I do have several concerns.
    First, the budget processes--when you consider about a 4 
percent reduction for State and local grants, training, and 
technical assistance, is an issue. In particular, the budget 
request includes a $200 million cut to vital firefighter grant 
programs, much of which I have heard many of my colleagues 
express in our own appropriations meetings here on the Hill.
    Collectively, these two programs are often the last 
lifeline for fire departments struggling to sustain their 
capabilities in this economic downturn. I would like to hear 
from you why--of all the grant programs, especially given your 
background--that FEMA manages, these two programs would be 
singled out to be cut to such a large degree.
    I am also extremely concerned about the proposal to 
consolidate several freestanding grant programs, such as the 
Citizen Corps, the Interoperable Emergency Communications 
within the State Homeland Security Grant Program.
    I saw first-hand the devastation in American Samoa after 
the tsunamis last fall, and we must ensure that our citizens 
are just as equally prepared for a serious disaster. Programs 
like Citizens Corps are key to this effort and must remain 
adequately funded.
    The same holds true for interoperability grants. I believe 
lumping these grants into State Homeland Security Grant 
Programs might only dilute the amount of funding for the 
integration of the State and local emergency communication 
systems.
    I am also troubled by the elimination of the separate 
funding for emergency operation centers. I understand that it 
is an eligible expense under the Emergency Management 
Performance Grants, but, again, I am concerned that these 
centers will lose critical funding by being combined.
    The budget is a very good indication of your vision for the 
upcoming year, Administrator Fugate, but we also know you have 
taken many other steps in your first year to build a stronger 
FEMA for years to come. I was pleased to review your 
administrator's intent for fiscal years 2012 and 2016. I think 
it speaks to your background and you knowing what is really 
needed in this organization.
    This document outlines critical FEMA priorities, such as 
community resilience and performance metrics, but the 
overarching principle of the administrator's intent memo is the 
regional office empowerment. I support this overall strategy; 
however, questions do remain about how FEMA intends to provide 
the regions with the resources necessary to fulfill their 
duties, especially in light of that you didn't request any 
additional FTEs for this section.
    The subcommittee did not get a lot of answers from FEMA 
last month, so I hope it is something you can address today.
    I also know your vision for FEMA includes a shift away from 
``Government-centric'' disaster management to a more multi-
sector collaborative approach. While there is certainly some 
strength in this strategy, I caution that FEMA must not shy 
away from its leadership role in disaster management.
    For instance, I was very disappointed that FEMA's role was 
not more clearly defined in the draft National Disaster 
Recovery Framework, and I expect that the final version to 
emphasize FEMA's leadership capacity.
    As we approach your 1-year anniversary as administrator--
and I think you should be happy you got through being appointed 
before some of the other folks are still waiting--I believe 
FEMA has a long way to go under your leadership, but I am sure 
you will agree that that work is doable that lies ahead.
    The recent $3.9 million contract to Partnership for 
Temporary Housing to build only anywhere between 8 and 15 homes 
in American Samoa is just one example of the challenges that I 
expect you to address immediately. This contract is not 
justified in my opinion, and there must be accountability, 
starting from the top.
    I look forward to hearing how you will address this matter 
and my concerns with the budget. Thank you again for being here 
today, and I also want to give a good kudos to our staff, who 
have done an amazing job preparing for this.
    With that, I would now like to recognize the Ranking Member 
of the Subcommittee on Emergency Communications, Preparedness, 
and Response, the gentleman from Alabama, Mr. Rogers, for his 
opening statement.
    Mr. Rogers. I would like to thank the Chairwoman for 
holding the hearing.
    I want to thank Administrator Fugate for his time and being 
here and your preparation. I also want to let you know how much 
we appreciate your flexibility, given the inconvenience of 
canceling last month's hearing. It was--I know it was not easy 
for you to rearrange things, so I appreciate you doing that.
    A year has passed since Mr. Fugate began as the 
administrator of FEMA. Over the past year, this agency has made 
good progress in strengthening its capabilities and improving 
its performance. I would like to thank Mr. Fugate for his on-
going dedication and service.
    This hearing provides an opportunity to examine the current 
and future direction of FEMA and to address whether the agency 
has the resources and support it needs to carry out its 
mission.
    Recently, the administrator expressed his intent to utilize 
performance and implementation plans to drive the FEMA 
budgeting process in order to ensure that the budget request is 
in line with FEMA's overarching strategic plan. I look forward 
to hearing more about the administrator's intent and his vision 
for achieving the agency's priorities and improving its 
operations.
    FEMA's budget request for fiscal year 2011 shows a 
continued effort to strengthen preparedness and response and to 
implement the reforms in Post-Katrina Emergency Management 
Reform Act. I am glad to see that the budget includes $62.5 
million for the Center for Domestic Preparedness, for example, 
and the additional funds for CDP's facility repairs and capital 
improvements. Those were long overdue, so I appreciate that.
    That being said, there are some areas of FEMA's budget, as 
well as some policy decisions being made which raise serious 
concerns with me. For example, the significant cuts to State 
and local homeland security grant programs in my view are 
unjustified. These cuts present a major challenge to State and 
local governments as they work toward establishing and 
maintaining critical security capabilities, as well as 
fostering a prepared citizenry.
    This is also the second year in a row that this 
administration has requested a major cut to the assistance to 
firefighters grant program. This cut is just indefensible, 
particularly when fire departments are hard-pressed to find the 
money in this difficult economic climate to pay for necessary 
equipment and training.
    The budget also acknowledges FEMA's plan to reform the 
National Exercise Program, but it is lacking any detail on what 
this will look like. Exercises are a key proponent to 
preparedness, and so more information is needed on FEMA's long-
term vision and commitment to exercises.
    It is essential the FEMA start to produce faster and more 
useful after-action assessments of these exercises and 
continuously build on the lessons learned. We are all mindful 
of the important mission that FEMA is charged with, and we want 
to ensure the agency is allocating resources efficiently and 
effectively.
    I look forward to the witness's testimony, and I yield 
back.
    Ms. Richardson. The Chairwoman now recognizes the Chairman 
of the Committee on Homeland Security, the gentleman from 
Mississippi, Mr. Thompson, for an opening statement.
    Mr. Thompson. Thank you very much, Chairwoman Richardson, 
for convening such an important hearing this afternoon. Excuse 
me. Let me also thank you for your comments about the good 
people in my State who had significant damage done by a tornado 
this Saturday.
    Mr. Fugate, I appreciate your call. It meant a lot to me.
    But I also thank you for coming today to talk about FEMA's 
fiscal year 2011 budget priorities and beyond. You bring a 
wealth of on-the-ground emergency management experience to 
FEMA, which is critically important to understanding the needs 
of first responders and communities.
    Let me also add that there are many demands on FEMA's 
scarce resources. Many of these demands can be a matter of life 
and death to Americans who live in every corner of the country.
    On Saturday, as I indicated, I saw firsthand the 
devastation caused by a string of tornadoes. Scores of my 
constituents will need the help of your agency, and I look 
forward to your leadership.
    I believe this budget request reflects your vast 
experience, and I am pleased to see that FEMA received more 
than a 2 percent increase in net discretionary spending. With 
roughly $10.5 billion in total budget authority, FEMA should be 
able to adequately carry out its mission.
    I was particularly pleased to see the $23 million request 
for the regional facility construction. I know these funds will 
help you carry out your vision for empowering the regions. 
However, these new facilities will provide little benefit if 
FEMA does not have strong policies in place or adequate staff 
with the right expertise.
    Last month, I was dismayed to learn that FEMA still does 
not have a robust 5-year human capital plan. I urge you to 
complete that strategic plan and send it to this committee as 
soon as possible.
    Despite the overall increase in FEMA's budget, I do have 
serious concerns about some of your vital programs. Like the 
Chairwoman, I am concerned about cuts to the firefighter grants 
and the consolidation of several freestanding grants into the 
State Homeland Security Grants Program.
    I am also, as a matter of fact, alarmed by the 14 percent 
cut in the Urban Search and Rescue Program. We saw several 
examples of this team performing heroically in Haiti, and they 
deserve our Nation's support.
    In addition to this request, the administration is asking 
$5.1 billion in supplemental funding to the Disaster Relief 
Fund. These monies will be used to fund previous disasters, 
including very valuable arbitration claims from Hurricane 
Katrina, and I urge the Senate to move quickly to restore these 
vital funds. As the committee will remember, we passed H.R. 
4899 in the House just before the Easter recess.
    Mr. Fugate, there are a number of issues outstanding. One 
that concerns me greatly is that we have failed to close out 
nearly 800 disasters in FEMA since 1989. I understand that 
there are some $16 billion attached to those closeout figures 
because we have not closed them out. I urge you to do whatever 
you can to close the ledgers on those situations.
    In today's paper, we have the NextGen contract, which is in 
itself a real problem. Hopefully you can explain a little bit 
of that, because all of us are getting calls from people 
talking about their flood insurance going up. If we wasted 
several million dollars on a program we didn't even use, it 
doesn't speak well for us.
    So there are a lot of things we can work at. I know the 
Chairwoman is interested in the Samoan housing situation. I 
look forward to getting the information on that.
    I am not certain that we can afford a $400,000 three-
bedroom house. I just think that is a bit much. Hopefully you 
can provide us the explanation we need to say what the real 
costs are. If that is the cost, then perhaps we need to do 
something else. I just don't think we can justify those kind of 
numbers in this day and time.
    I yield back, Madam Chairwoman.
    Ms. Richardson. Other Members of the subcommittee are 
reminded that, under the committee rules, opening statements 
may be submitted for the record.
    I welcome our sole witness today, the Honorable Craig 
Fugate, the administrator of FEMA.
    Mr. Fugate began serving in the position as administrator 
of FEMA in May 2009. Prior to coming to FEMA, Mr. Fugate served 
as director of the Florida Division of Emergency Management. 
Mr. Fugate began his emergency management career as a volunteer 
firefighter and emergency paramedic and spent 10 years as the 
emergency manager for this county. We thank the administrator--
not this one, Alachua County.
    We thank the administrator for his service and for being 
with us today.
    Without objection, the administrator's--Fugate's statement, 
full statement, will be inserted into the record, and I now ask 
the administrator to summarize his statement for 5 minutes.

STATEMENT OF W. CRAIG FUGATE, ADMINISTRATOR, FEDERAL EMERGENCY 
       MANAGEMENT AGENCY, DEPARTMENT OF HOMELAND SECURITY

    Mr. Fugate. Well, thank you, Chairwoman Richardson and 
Ranking Member Rogers, and also Chairman Thompson, and the 
other Members of the committee. It is a great honor to serve in 
this role.
    I have this opening statement. To be honest with you, Madam 
Chairwoman, I think it is better just to get to your questions, 
and I am not sure how you want to do this, because there was a 
list of them.
    But let me just caveat the administration's request this 
way. We work under the premise that, in going forward in this 
fiscal year, there were tremendous pressures to look at 
expenditures. It was the direction to submit a request based 
upon last year's request. I realize that is not what was 
appropriated, but that was what the goal was in looking at our 
program, just looking at the request from last year, and that 
was what we submitted in most cases.
    It does reflect that those numbers were less than what was 
ultimately appropriated, but in looking at the fiscal 
constraints we had, that was the decision that was made to 
submit based upon the request last year, and it did not factor 
in the appropriation amounts, and that would be--again, as you 
point out--one of the areas that you want me to address.
    But in all, I appreciate the opportunity to be here. Again, 
I will defer, Madam Chairwoman. Do you want to do these 
questions one at a time by different Members or try to go back 
to the list? Or how would you like me to do that?
    [The statement of Mr. Fugate follows:]
                 Prepared Statement of W. Craig Fugate
                             April 27, 2010
                              introduction
    Chairwoman Richardson, Ranking Member Rogers and Distinguished 
Members of the committee, it is a privilege to appear before you today 
on behalf of the Department of Homeland Security (DHS) and the Federal 
Emergency Management Agency (FEMA) to discuss the agency and our fiscal 
year 2011 budget request. The budget the President has proposed 
acknowledges the austere budget climate in which we find ourselves, and 
recognizes that FEMA also must be a good steward of taxpayer funds. In 
the development of our budget, we have considered the challenges faced 
by our State and local partners, and the reality that the Federal 
Government must meet its responsibilities while staying within its 
means.
    The agency's fiscal year 2011 budget requests $7.294 billion in net 
discretionary budget authority, which is an increase of $186 million 
above the fiscal year 2010 enacted level. This budget will help ensure 
that FEMA can continue to:
  <bullet> Empower and strengthen local communities and individuals;
  <bullet> Invest in our human capital and facilities;
  <bullet> Mitigate against hazards;
  <bullet> Enhance the preparedness of our Nation;
  <bullet> Provide effective emergency response; and
  <bullet> Assist communities in recovering rapidly from disasters.
     empowering and strengthening local communities and individuals
    FEMA's budget request builds on a core principle that I believe is 
critical to not only FEMA's success, but also the success of our Nation 
in managing disasters: FEMA is only part of the emergency management 
team; we are not the entire team. We need to move away from the mindset 
that Federal and State governments are always in the lead, and build 
upon the strengths of our local communities and, more importantly, our 
citizens. We must treat individuals and communities as key assets 
rather than liabilities. This principle drives our agency's priorities, 
programs, policies, and budget. The principle was also reflected in the 
first ever Quadrennial Homeland Security Review (QHSR), which defines 
the future direction of homeland security in the United States.
    The QHSR, which was recently released by the Department, recognizes 
that despite our best efforts to protect this country and our citizens, 
disasters, accidents, and even deliberate attacks are inevitable. Our 
collective challenge is to build our National capacity to be resilient 
in the face of disasters at all jurisdictional levels, beginning at the 
local level with our citizens.
    As Secretary Napolitano and I have repeatedly said, citizens often 
play a far larger role in disasters than is typically recognized. 
Family members, friends, co-workers, and neighbors help with 
evacuations, search and rescue, food, water, shelter, and medical care, 
and undertake many other critical response functions well before 
professional emergency responders arrive. Partnerships that reflect 
this reality are fundamental to achieving resilience. These 
partnerships must be formally recognized and strengthened before an 
incident occurs, to help ensure that we are maximizing our combined 
strengths and have the capacity to reach those in need of assistance.
    FEMA will foster an approach to emergency management Nationally 
that is built upon a foundation of proactive engagement with 
neighborhood associations, businesses, schools, faith-based community 
groups, trade groups, fraternal organizations, and other civic-minded 
organizations that can mobilize their networks to build community 
resilience and support local emergency management needs.
             investing in our human capital and facilities
    The administration's fiscal year 2011 request includes an increased 
Management and Administration (M&A) appropriation budget that will help 
FEMA invest in both our employees and our facilities. Our employees are 
our most valuable resource, and we need to ensure FEMA has the 
institutional knowledge and expertise needed to fulfill our mission.
    The M&A appropriation provides core mission funding across all FEMA 
organizations at both the regional and headquarters levels. In the wake 
of Hurricane Katrina, FEMA expanded its temporary workforce known as 
the Cadre of On-Call Response Employees (CORE) to support new and 
expanded mission requirements, including programs supporting logistics 
management, individual assistance to disaster survivors, mitigation, 
disaster telecommunications, as well as business support functions 
across the workforce. These temporary but full-time employees have been 
paid through the Disaster Relief Fund (DRF) appropriation both for 
direct charge disaster and non-disaster specific allocations. Those 
that are essential to FEMA's ability to execute its daily mission 
requirements are proposed to be funded in the M&A appropriation, which 
supports all of FEMA's mission areas. FEMA is currently in the process 
of moving these essential full-time temporary CORE positions to full-
time permanent Federal positions and we will complete these moves in 
fiscal year 2010. After this action is completed, FEMA will no longer 
use its temporary CORE workforce for base FEMA programs. In our fiscal 
year 2011 request, only the CORE employees charged directly to specific 
disasters will remain funded by the DRF.
    We have also proposed a modest increase of $23.3 million in our 
fiscal year 2011 M&A appropriation request for improvements to support 
neglected facilities. By 2011, FEMA will reach the point where our 
facilities will be unable to continue to absorb projected and necessary 
staffing increases and mission responsibilities. FEMA also faces a 
critical need for adequate resources to maintain and repair our aging 
and deteriorating facilities. To address these needs, FEMA has 
developed a 5-year capital plan. $23.3 million is required in fiscal 
year 2011 to begin critical regional facility acquisitions and repairs, 
as well as to support critical and long-overdue capital improvements. 
Of this amount, $11.4 million would be allocated for additional 
facilities to provide adequate space for our workforce and the 
remaining $11.9 million would be allocated to facility repairs and 
capital improvements for existing facilities.
    To support all M&A activities, FEMA requests $902.9 million, which 
represents a net increase of $105.3 million or 13.2 percent. This 
request will annualize the $105.6 million that was transferred in 
fiscal year 2010 from the DRF into the M&A account and will fully fund 
all M&A employees within the M&A account, eliminating the need to seek 
a transfer authority as has been necessary in the past.
                       mitigating against hazards
    Although some disasters are inevitable, we can and must take steps 
to reduce their impact. Achieving this goal requires a thorough 
assessment of risks and robust efforts to reduce vulnerabilities. 
Mitigation provides a critical foundation to reduce loss of life and 
property by avoiding or lessening the impact of a disaster, and seeks 
to break out of the cycle of disaster damage, reconstruction, and 
repeated damage. Mitigating vulnerabilities reduces both the direct 
consequences and the response and recovery requirements of disasters.
    The Pre-Disaster Mitigation (PDM) Fund provides technical 
assistance and Federal funding to State, local, and Tribal governments 
to support the development and enhancement of hazard mitigation plans 
aimed at instituting policies and practices, and mitigation projects 
that involve physical measures to avoid or reduce damage from natural 
disasters. Operating independently of the DRF, which provides post-
disaster Hazard Mitigation Grant Program (HMGP) funding, the PDM Fund 
offers an annual source for qualified mitigation activities that are 
not dependent upon a Presidential disaster declaration. The 2007 report 
from the Congressional Budget Office found that for every dollar 
invested prior to a disaster, $3 in future losses to taxpayers are 
avoided, based on an analysis by CBO of mitigation investments. In 
addition, the Multihazard Mitigation Council of the National Institute 
of Building Sciences did a Congressionally mandated study and found 
that every dollar spent on disaster mitigation saves society an average 
of $4. Mitigation helps to save lives and reduce property damage.
    In fiscal year 2011, FEMA seeks to incorporate pre-disaster 
mitigation and sustainability principles into both the PDM program and 
the Department of Housing and Urban Development's (HUD) Sustainable 
Communities Initiative through a partnership with HUD. This will help 
support strategic local approaches to sustainable development by 
coupling hazard mitigation with related community development goals and 
activities that reduce risks while protecting life, property, and the 
environment. In support of this effort, the administration requests 
$100 million in fiscal year 2011 for the PDM Fund, the same amount 
enacted in fiscal year 2010.
    The Flood Hazard Mapping and Risk Analysis Program addresses flood 
hazard data update needs and builds upon the successful Flood Map 
Modernization program. This effort began in 2004 as a Federally funded 
initiative to improve and modernize the process for updating, 
maintaining, storing, and distributing the flood hazard and risk 
information portrayed on Flood Insurance Rate Maps (FIRMs). Federal 
statutory requirements direct FEMA to review the flood hazards maps on 
a 5-year cycle and address flood hazard data update needs.
    To meet this requirement, FEMA requests $194 million in fiscal year 
2011 for the Flood Hazard Mapping and Risk Analysis Program, a net 
decrease of $26 million from the level enacted in fiscal year 2010. 
However, this reduction will be offset by fees collected through the 
National Flood Insurance Program (NFIP) and efficiencies created 
through the implementation of Risk Mapping, Assessment and Planning 
(Risk MAP) and through FEMA's use of digital rather than paper maps.
    The National Flood Insurance Fund (NFIF) is a premium revenue and 
fee-generated fund that supports the NFIP. The NFIP provides flood 
insurance on a National basis to owners of properties located in 
vulnerable areas. Currently the NFIP insures more than 5.6 million 
residential and commercial policyholders, totaling approximately $1.1 
trillion in insurance coverage. By supporting the flood hazard 
reduction grant programs and floodplain management efforts, the NFIP 
estimates that more than $1.2 billion in flood-related losses are 
avoided annually.
    FEMA requests $169 million in fee authority in fiscal year 2011 for 
the discretionary NFIF funding which is a $23 million increase from the 
fiscal year 2010 enacted level, based on estimated fee collections 
resulting from increases in policy fees that will go into effect by May 
1, 2010.
    FEMA also requests $3.0 billion in fee authority in fiscal year 
2011 for mandatory NFIP funding, which is a $50.5 million increase over 
the fiscal year 2010 enacted level based on estimated policy rate 
increases effective in October 2009 and October 2010. The mandatory 
NFIP fee authority will fund the Flood Mitigation Assistance and 
Repetitive Flood Claims programs, in addition to the NFIP operating 
expenses.
                enhancing the preparedness of our nation
    Active participation by all segments of society in planning, 
training, organizing, and heightening awareness is an essential 
component of National preparedness. Although efforts have traditionally 
focused on preparedness of the Government and official first 
responders, we must start with our citizens. The preparedness of our 
citizens, and the enhancement of their ability to care for themselves 
and assist their neighbors in emergencies, is critical to response and 
recovery success. When safely provided, neighbor-to-neighbor assistance 
decreases the burden on emergency responders. Our citizens should be 
seen as force multipliers who can offer specialized knowledge and 
skills, and allow emergency responders to focus on the most vulnerable 
segments of society.
    After neighbors, law enforcement, emergency services, and fire 
personnel are the first to respond to an incident, and are usually the 
first to identify and commence preparation for an emerging event. We 
must continue to ensure that these organizations and personnel are 
properly trained, and fully supported.
    Through grants, training, exercises, and other support, the State 
and Local Programs (SLP) appropriation enables FEMA to fulfill its role 
as the principal component of DHS responsible for assisting State and 
local governments in the prevention of, protection against, response 
to, and recovery from natural and man-made disasters.
    FEMA requests $4 billion in fiscal year 2011 for the SLP 
appropriation, which is a decrease of $164.61 million from the fiscal 
year 2010 enacted level. The request also proposes to consolidate 
several current grant programs into a larger State Homeland Security 
Program (SHSP) and Urban Areas Security Initiative (UASI). This 
consolidation gives States and urban areas the flexibility to spend 
grants funds through SHSP and UASI according to their identified 
priorities, rather than tailoring their needs to ``fit'' the multiple 
grant programs that currently exist. State, local, and Tribal partners 
have stated that they would like to see some consolidation of similar 
grant programs, in order to reduce the administrative and application 
burdens. This budget is responsive to this important stakeholder 
feedback.
    Proposed funding levels within the SLP appropriation are as 
follows:
  <bullet> State and Regional Preparedness Program.--This program 
        includes four grant programs--the SHSP; the Emergency 
        Management Performance Grants (EMPG); the Regional Catastrophic 
        Preparedness Grants Program (RCPGP); and the Firefighter 
        Assistance Grants Program. The Firefighter Assistance Grants 
        Program actually consists of three individual programs: the 
        Assistance to Firefighter Grants (AFG) program, the Staffing 
        for Adequate Fire and Emergency Response (SAFER) program, and 
        the Fire Prevention and Safety (FP&S) program. In fiscal year 
        2011, FEMA requests $2.04 billion for the State and Regional 
        Preparedness Program, which is the same amount as requested in 
        fiscal year 2010, but is a decrease of $313.7 million from the 
        fiscal year 2010 enacted level. The administration also 
        proposes to realign the Firefighter Assistance Grants and the 
        Emergency Management Performance Grants into the SLP 
        appropriation.
  <bullet> Metropolitan Statistical Area (MSA) Preparedness Program.--
        The proposal for this program includes four grant programs--the 
        Urban Areas Security Initiative (UASI); the Buffer Zone 
        Protection Program (BZPP); the Port Security Grant Program 
        (PSGP); and the Transit Security Grant Program (TSGP). In 
        fiscal year 2011, FEMA requests $1.75 billion for the MSA 
        Preparedness Program, which includes an increase of $201 
        million from the fiscal year 2010 enacted level.
  <bullet> Training Measurement and Exercise Program.--This program 
        funds the National Exercise Program, the Continuing Training 
        Grant Programs, the National Domestic Preparedness Consortium, 
        and the Technical Assistance and Evaluation and Assessment 
        Program. In fiscal year 2011, FEMA requests $210.59 million for 
        the Training Measurement and Exercise Program, which is the 
        same amount as requested in fiscal year 2010.
  <bullet> Management and Administration.--Funding for this activity 
        includes traditional operational and program management support 
        resources for the Grants Program and National Preparedness 
        offices. This funding supports the salaries and benefits for 
        headquarters and regional staff, travel, rent, printing and 
        supplies, related preparedness activities, and the business 
        processes and systems necessary for all stages of grants 
        management. The proposal is for program management and 
        administration costs not to exceed 4.7 percent of the total 
        funding of the State and Local Programs (including the 
        Firefighter Assistance Grants and Emergency Management 
        Performance Grants). In addition, we are also proposing that 
        funding for Grants Program and National Preparedness management 
        and administration be transferred to the FEMA M&A appropriation 
        account after enactment.
    The mission of the United States Fire Administration (USFA) is to 
provide National leadership to foster a solid foundation for fire and 
emergency services stakeholders for prevention, protection, 
preparedness, and response. USFA prepares the Nation's emergency 
responders through on-going and, when necessary, expedited training, to 
help evaluate and minimize community risk, improve protection of 
critical infrastructure, and better prepare to react to all types of 
emergencies. USFA coordinates with other Federal, State, and local 
emergency service agencies, the private sector, and with colleges, 
universities, and other DHS educational consortium participants.
    To continue to build these preparedness capabilities, FEMA requests 
$45.93 million for USFA in fiscal year 2011, which is an increase of 
$342,000 for pay inflation, as compared to the fiscal year 2010 enacted 
level.
    The Radiological Emergency Preparedness Program (REPP) assists 
State, local, and Tribal governments in the development of off-site 
radiological emergency preparedness plans within the emergency planning 
zones of Nuclear Regulatory Commission (NRC) licensees of commercial 
nuclear power facilities. The REPP fund is financed from user fees 
assessed and collected from NRC licensees to cover budgeted costs for 
radiological emergency planning, preparedness, and response activities 
in the following year.
    FEMA requests $33 million in fee authority for REPP in fiscal year 
2011, which is an increase of $361,000 for pay inflation, as compared 
to the fiscal year 2010 enacted level.
                 providing effective emergency response
    Because it is impossible to eliminate all risks, a resilient nation 
must have a robust capacity to respond when disaster strikes. This 
response must be grounded in the basic elements of incident management. 
When an incident occurs that is beyond local response capabilities, 
communities must be able to obtain assistance from neighboring 
jurisdictions and regional partners quickly, making a robust regional 
capacity vital to effective emergency response.
    Strong FEMA Regions are critical to our ability to maintain and 
sustain robust partnerships with our stakeholders within the public and 
private sector that will help ensure the most efficient leveraging of 
National expertise, resources, and capabilities in future responses to 
all-hazard events. FEMA will continue to further empower our regional 
offices to improve quality and consistency in all aspects of disaster 
preparedness and management, including disaster response. Regional 
situational awareness of operations must be used to properly shape 
policy and planning.
    The FEMA team has continued to improve coordination and 
connectivity with interagency, military, and DHS partners through 
upgrades to our network of operation centers, including the National 
Response Coordination Center, Regional Response Coordination Centers, 
the Response Watches, and the FEMA Operations Center.
    FEMA's Operational Teams--the Incident Management Assistance Teams 
(IMAT), the Urban Search and Rescue (US&R) Task Forces and Mobile 
Emergency Response Support (MERS) teams--continue to be deployed in 
support of disasters and National Security Special Events.
    The IMAT can rapidly deploy to an incident or incident-threatened 
venue, provide leadership in the identification and provision of 
Federal assistance, and coordinate and integrate inter-jurisdictional 
response in support of affected State(s), Tribe(s) or U.S. 
territory(s). IMAT teams support efforts to meet emergent needs, 
provide initial situational awareness for Federal decision-makers, and 
support the initial establishment of a unified command. Moreover, the 
IMAT can establish an effective Federal presence within 12 hours of 
notification and are self-sufficient for a minimum of 48 hours to 
augment potentially scarce local resources.
    The US&R system is comprised of 28 Task Forces that provide a 
coordinated, National, all-risk capability for locating, extricating, 
and stabilizing victims of structural collapse incidents resulting from 
natural or manmade causes, including terrorism and weapons of mass 
destruction. These Task Forces are highly trained and possess the 
necessary expertise to provide medical treatment to victims in heavy 
rescue situations. FEMA distributes readiness grants to each of the 
US&R Task Forces to provide the US&R system crucial funding for 
equipment and training.
    Within the FEMA M&A appropriation, there is funding for the US&R 
Task Forces. FEMA requests $28 million for the US&R Task Forces in 
fiscal year 2011, which is the same amount as requested in fiscal year 
2010.
           helping communities recover rapidly from disasters
    The Robert T. Stafford Act Disaster Relief and Emergency Assistance 
Act authorizes the President to provide Federal assistance to 
supplement State and local governments' disaster response, recovery, 
readiness, and mitigation efforts. Under the Homeland Security Act, as 
amended by the Post Katrina Emergency Management Reform Act, the FEMA 
Administrator has been delegated the responsibility for administering 
the Stafford Act's Federal assistance program. Through the DRF, FEMA 
can fund authorized Federal disaster support activities as well as 
eligible State, territorial, Tribal, and local actions, such as 
providing emergency protection and debris removal. The DRF also funds:
  <bullet> The repair and rebuilding of qualifying disaster-damaged 
        infrastructure;
  <bullet> Post-disaster hazard mitigation initiatives;
  <bullet> Financial assistance to eligible disaster survivors; and
  <bullet> Fire Management Assistance Grants for qualifying large 
        wildfires.
    Major disasters and emergencies may be the result of natural or 
man-made hazards, and are normally declared by the President in 
response to gubernatorial requests for assistance. States request 
Federal assistance to supplement their available resources and certify 
that a given disaster is beyond their capacity or capability to 
respond.
    FEMA requests $1.95 billion for the DRF in fiscal year 2011, which 
is a net increase of $350 million from the fiscal year 2010 enacted 
level to support the 5-year average obligation level for non-
catastrophic disaster activity.
    The administration is submitting, concurrent with the fiscal year 
2011 request, a $5.1 billion supplemental request for the DRF. These 
funds are needed due to continuing obligations associated with previous 
disasters including hurricanes Katrina, Rita, and Wilma in 2005 and 
2006, the 2007 California wildfires, and hurricanes Gustav and Ike in 
2008, among others. These supplemental funds are needed immediately to 
allow us to continue our response and recovery efforts from these large 
catastrophic events.
    The Emergency Food and Shelter Program provides grants to nonprofit 
and faith-based organizations at the local level through a National 
Board to supplement their programs for emergency food and shelter. 
Nearly 12,000 nonprofit and local government agencies in over 2,500 
cities and counties across the United States receive grant awards. 
Emergency Food and Shelter funds are used to supplement food, shelter, 
rent, mortgage, and utility assistance for people with non-disaster 
related emergencies. FEMA requests $100 million for the Emergency Food 
and Shelter Program in fiscal year 2011. This is the same amount as 
requested in fiscal year 2010.
    Working with partners and stakeholders, FEMA, together with our 
Federal partners, will continue to support recovery programs that more 
seamlessly support affected communities and balance the assistance 
needs of the States, communities, and individuals with the agency's 
need to serve as a good steward of taxpayers' funds. In the coming 
year, FEMA will build upon the results of the Catastrophic Event 
Preparedness effort and the direction provided by the Long Term 
Disaster Recovery Working Group, the National Disaster Recovery 
Framework, the National Disaster Housing Task Force and other related 
taskforces and workgroups to implement a more robust, efficient and 
cost-effective Federal program to meet the needs of survivors.
                               conclusion
    Madam Chairwoman, I believe that the administration's fiscal year 
2011 budget proposal represents a thoughtful, responsible approach to 
improving our Nation's resilience to all hazards. The budget proposal 
will enable the entire emergency management team to achieve our 
strategic goals to mitigate hazards, enhance our Nation's preparedness, 
ensure an effective emergency response capability and assist those 
communities that do experience disasters to rapidly recover.
    But more importantly, our budget will help us empower and 
strengthen communities and individuals. As I noted at the outset, Madam 
Chairwoman, FEMA is not the entire team. We are only part of the team--
a team that includes all Americans. The more that we can do to ensure 
that each individual and family is prepared for disasters, the better 
prepared we will all be as a Nation. I look forward to working with 
you, distinguished Members of this subcommittee, and other Members of 
Congress to communicate this message to the American people so that we 
can become a more resilient Nation.
    This concludes my testimony today. I am prepared to answer any 
questions the committee may have.

    Ms. Richardson. We do have a process, and we will follow 
the normal process that we have.
    In light of that, my script says here I will thank you for 
your testimony, although it be brief. I will remind each Member 
that he or she will have 5 minutes to question the witness, and 
I will now recognize myself for questions.
    So, Mr. Fugate, in light of what you just said, without 
those restrictions, how would you have presented your budget 
differently?
    Mr. Fugate. Well, I have never been given a situation where 
I was given unlimited funds. So I am not sure what the 
appropriate response would be other than, we based our request 
upon what this administration had done. I believe prior to 
this, the administration budget request had not even factored 
in many of these programs.
    We at least are trying to recognize the importance of these 
programs and make recommendations upon base-level funding, but 
we did not--looking at this year--feel that the recommendation 
above the President's previous request was warranted, given our 
current fiscal situations.
    Ms. Richardson. Mr. Fugate, some committees might agree 
with that general response. However, with being in charge of 
FEMA, you have a unique responsibility. Our entire homeland 
security--and when you look at the entire homeland's response--
is sitting on your shoulders.
    So I think in your particular assignment, we really want to 
hear from you of what you need. I think dependent upon what you 
need are the recommendations that we should be making.
    Mr. Fugate. Well, the President's recommendation is what I 
agree we need to go forward with. There is an interesting 
question here in the firefighting grants, particularly SAFER. 
That is, are we trying to address in the short term the 
difficulties that we are having at the local level versus long-
term funding?
    I don't think that I know what that answer is. I think that 
this is--as you go through an economic crisis that some say may 
be abating--at what level do we need to continue to fund that 
support and for how long? This was a recommendation based upon 
what we had previously requested, but I am not sure how to 
answer that question on what is the proper balance between 
local funds versus Federal dollars, given the current economic 
cycle.
    Ms. Richardson. Well, I would say to you, since the local 
funds are not in abundance, us relying upon the short term to 
have their contribution is probably not effective. In light of 
your first--the thing you just alluded to, the SAFER grants, 
what I would say to you, one of my biggest concerns is why we 
would have a cut in the SAFER grants, and yet you would have an 
increase of $200 million for terrorist training.
    Mr. Fugate. Again, these were factored as far as looking at 
previous recommendations, previous funding, and looking at 
where we saw our needs at. In looking at the Federal mission--
not State and local response--those were areas we looked at.
    Ms. Richardson. So how many terrorist trainings have you 
already had?
    Mr. Fugate. I would have to get a list for you and provide 
that in writing. I would not have on the top of my head that 
number.
    Ms. Richardson. Okay. I would venture to say to you, I can 
at least speak for my own personal opinion that if this is a 
couple more terrorist trainings versus the actual response of 
our first responders being able to help us in the event 
something were to happen, my $200 million would be for the 
SAFER grant program or the firefighter grant program and not 
the one that you have recommended.
    My next question would be, the budget eliminates several 
stand-alone grant programs and lumps them in with the homeland 
security grant program. I do not support the elimination of any 
of these programs, but I am especially troubled by the decision 
to eliminate the Citizens Corps grant, also--and some of the 
others, particularly with the emergency operations 
communications.
    Last month, FEMA told us that they still did not have a 
strategy for promoting community awareness. Without a blueprint 
or a dedicated grant program to support Citizens Corps 
councils, how does FEMA expect to promote individual community 
preparedness?
    In terms of interoperability grants, how will you ensure 
that the Interoperable Emergency Communications Grant Program 
remains adequately funded and a priority if it is consolidated 
within the homeland security grant program?
    Mr. Fugate. The answer is, this was not the intention, to 
eliminate these grant programs. It was to reduce the paperwork 
in applying for these grant programs.
    The money is still there. It is just being combined into 
one grant application process and giving local and State 
officials, particularly the State administrative agency, more 
flexibility in administering these grants. So the intention was 
not to eliminate the funds, but I understand the concern that, 
in doing that, it also loses the identity as singled out as a 
grant program, not as a merged pot of money.
    Ms. Richardson. So are you prepared to commit that the 
current funds that those various grant programs have, that they 
will stay remained in the new consolidated program? For 
example, I think the interoperable was $50 million to $60 
million. Are you prepared to commit that those funds stay 
allocated in those sections?
    Mr. Fugate. It is the intent to provide flexibility, so 
before I would commit to what State and local governments may 
do, it is the intention to give them more flexibility in these 
funds, but that is something that we would take under 
advisement.
    Ms. Richardson. For the next round of questions, I will go 
there, but I will tell you, Mr. Fugate, those two don't add up. 
You either--you said you are not intending to cut the funding, 
and yet you are saying, well, it will be in a flexible pot and 
they can do what they want. You can't have both apples. It just 
won't work.
    Mr. Rogers.
    Mr. Rogers. I thank the Chairwoman.
    Mr. Fugate, last time you testified before this committee, 
I submitted a question to you about disaster declarations and 
the lack of transparency. You told me you were going to review 
that and see if you thought maybe there was some more 
information that should be passed along to the States to make 
sure that they feel comfortable, they understand the process.
    Can you tell me what your review has yielded, if you have 
made any changes in the way you disseminate information?
    Mr. Fugate. That one turns out that, in doing it, we have 
been doing more briefings. We brought in declaration folks to 
sit down with States and go over the process.
    But I think part of the challenge we have had in some of 
the requests that we see from States is, their information--as 
we demonstrated one time, we had to go back and get more 
information, and that sometimes slows down the process. 
Ultimately we make a recommendation. That recommendation is 
then something the President acts on. Then at the end of that 
process, we can then release the information.
    We have responsibility after so many days after that to 
report back to Congress, but in doing that, it is, I think, 
still--for the State perspective--a lot of questions. We are 
currently working with White House staff to try to clarify some 
of that. But it is a work in progress, and it is--in my 
opinion, it is moving in the direction we want to go to, but we 
are not there yet.
    Mr. Rogers. Do you have a time line that you think you will 
have resolved these problems?
    Mr. Fugate. Well, I think in the area of individual 
assistance, this is one area we are working with the White 
House on, because in declarations requiring that there is no 
threshold, but you have to demonstrate how much of an impact 
that has that would exceed the capability of State and local 
governments to manage.
    We have examples in the CFR, but they don't always 
correlate into clear delineations of what would be the 
threshold, since there is no set threshold. It is actually 
prohibited under the Stafford Act to have an arbitrary number 
as the determining threshold for individual citizens.
    So we are looking at, how do we clarify? What are the 
factors that we are looking at, such as the impacts, incomes on 
employment, disadvantaged community, uninsured losses, as 
giving a better understanding of what reasonably you could 
expect if you were making that request?
    On the State side, when I was a State director, it is 
pretty difficult to know what is the exact threshold for 
individual assistance. Public assistance tends to be more 
driven by the type of damage that was eligible--the capability 
of State and local governments, but individual assistance is 
much more difficult to quantify.
    Mr. Rogers. Well, I understand it is complicated. I am 
really more interested in knowing when you think you will have 
resolved these problems and have, you know, some clear 
resolution with the States. Will it be 6 months from now, a 
year from now, 3 months?
    Mr. Fugate. Probably on individual assistance, we are 
looking at when the next--it depends upon the conversations we 
are currently having with the States and also working back with 
the White House, but I think that will be the first one that 
will have additional guidance, and that may be as early as 3 
months to 6 months.
    Public assistance, I think we are still looking at, is--
will probably come up with some questions. Snow policy and 
other areas we are having to look at again after this recent 
round of snow events, so that may take longer.
    Mr. Rogers. Okay. I want to talk to you about the Center 
for Domestic Preparedness. Last week, we had weapons of mass 
destruction commissioners in here testifying about their 
review, and one of the things they emphasized was that it is 
very likely that we are going to have a WMD attack in this 
country by 2013.
    In light of that prediction, is there something that you 
are doing to be proactive in that field to prepare for the 
consequences of an attack such as that?
    Mr. Fugate. Yes, sir. We put more emphasis on our weapons 
of mass destruction activities at the headquarters level and 
also at the region levels. Part of this goes back to an area 
that has been pointed out in these reports is, how do we do 
public preparedness and public messaging? That is an area that 
we are looking at now based upon those reports.
    We have done more exercises. We are doing more training. We 
have teams that are a part of multi-agency, Federal agency 
teams that would respond in the event of this threat. Many of 
those teams go through the Center for Domestic Preparedness for 
their training.
    Mr. Rogers. Well, and I am glad you mentioned that, because 
you are right. I am wondering what we can do to expand that. 
But more importantly, as you know, I represent a very rural 
Congressional district. We have some mobile training that can 
go out to these rural first responders. Can you do something to 
enhance that role at the CDP?
    Mr. Fugate. I will take that back to Tim Manning, the 
administrator over those areas, and ask him to take a look at 
that and report back.
    Mr. Rogers. Great, thank you.
    I yield back.
    Ms. Richardson. Chairman Thompson.
    Mr. Thompson. Thank you very much, Madam Chairwoman.
    Mr. Fugate, I referenced the NextGen contract. Inspector 
general basically has indicated that, after $7.5 million 
invested in an IT system for National flood insurance, it did 
not meet security or technical requirements. Is that your 
understanding?
    Mr. Fugate. Yes, sir.
    Mr. Thompson. What have you done in light of that?
    Mr. Fugate. I was the one that requested the IG review in 
the first place. This was one of the situations I found upon my 
arrival at FEMA that initial reports did not convey to me that, 
(A) we had a good understanding of what we were trying to do, 
and (B), I was concerned about the fact that many of the people 
working on this project were actually former employees and had 
actually switched from a contractor role into a Federal role.
    I felt at that point that any attempt on our part to 
determine what had happened would not be credible, and I 
requested the IG to come in and do that audit.
    The other thing that I found at that time was we did not 
have strong internal management controls for these types of 
projects and had no oversight from our chief financial officer 
or chief procurement officer or our IT infrastructure, which 
you would have thought would have been a natural fit for a 
project of this size within the mitigation directorate.
    We are taking all of the IG findings seriously. We are in 
the process of implementing them. We are going to probably at 
this point move that project from out from underneath the 
mitigation staff which do not have the IT or technical 
background for managing that type of system and have our 
management directorate with the IT oversight to manage this 
project.
    Mr. Thompson. Can you briefly tell us whether or not the 
ethical conflicts that the IG raised in the--in the report, 
whether or not you will take action, have taken action?
    Mr. Fugate. The COTARs that were involved in this project 
were taken off of this project. We tried to provide separation 
between those staff that previously had potential conflicts of 
interest out of this process.
    But, Mr. Chairman, that was exactly why, when I started 
reading this, I said, there is no credible way I can deal with 
this problem given the fact that I have immediate conflict of 
interest just from reading the documents I saw. So I felt the 
only way to get a good feedback on what needed to be done was 
to have outside counsel--in this case, IG--provide that 
oversight.
    Mr. Thompson. Well, I would say--look at who put the COTARs 
on the contract. That is your problem. So I--and I am sure you 
will do that. Do you nod, say you will, or----
    Mr. Fugate. Mr. Chairman, we are going to fully take 
advantage of the IG findings to ensure that this is addressed.
    Mr. Thompson. Thank you. Thank you.
    The human capital plan, you have talked about pushing more 
authority down to the regional office level. Can you tell us 
when we can expect that 5-year human capital plan?
    Mr. Fugate. Mr. Chairman, I can tell you where we are at in 
this process. We have finished our reviews within homeland 
security to go back to OMB for final approval before we 
transmit.
    We were, I think, in our last budget given funds to bring 
in the Homeland Security Institute to help us work this issue 
and put together what the staffing plans would look like. Part 
of this was looking at what scenarios we would respond to based 
upon our existing response structures using Katrina and 
staffing for Katrina as an example of a catastrophic disaster 
response. So we are in the process of pouring that model.
    I am not sure I can give you an exact time frame, but I 
would say in months we should have this back to Congress based 
upon where we are at in submitting this through OMB.
    Mr. Thompson. The problem I think some of us have is we are 
moving toward a new business model, but yet still we are not 
sure who the drivers and other people will be. So I think it 
would help you if you had that human capital plan in front of 
you geared toward the new business model.
    Mr. Fugate. I would agree, Mr. Chairman, but as we noted, 
we did not have new FTEs in this budget. But we do have some 
that are being converted from contractors.
    We also had in this previous year a lot of assistance from 
this body helping us move temporary positions--what we call 
core positions--and convert those to full-time that were doing 
full-time work, that we had some bad habits, to be honest. We 
were doing a lot of things using the disaster recovery fund for 
continuation of business, not tied to a disaster.
    So part of this was already being done, was looking at 
where we had positions that were being funded out of the DRF, 
the disaster recovery fund, that were not tied to a specific 
disaster. This body--as well as the Senate--agreed to help fund 
those positions to convert them to full-time equivalents.
    Mr. Thompson. Can you tell us how you plan to close out 
over 800 disasters?
    Mr. Fugate. That process has already begun. To a certain 
degree, we are already seeing the success of that.
    We brought in through the acquisition coordination of our 
budget shop to look at, how many current mission assignments 
did we have that had not been closed out? These are mission 
assignments to other Federal agencies, some of which as you 
point out were open for a long period of time.
    We have been able to recover and de-obligate over $400 
million in the past month of these open disasters. We also are 
looking at a lot of these disasters that may have residual 
amounts left in mission assignments that have not been closed 
out, making determinations of how to close those out.
    So it is our goal to reduce the backlog of closing out 
disasters, de-obligate those funds that can go back and 
replenish the DRF, and move to the closure on many of these 
older disasters that do not have any complicated issues or on-
going recovery activities, but just have not been closed out 
due to lack of effort.
    Mr. Thompson. If you have put together a plan to close it 
out or whatever is presently underway, can you provide the 
committee with that document?
    Mr. Fugate. Yes, sir, Mr. Chairman. That would come from 
our chief financial officer, who took the lead on this, and we 
can provide that.
    Mr. Thompson. Thank you very much.
    Madam Chairwoman, one more question.
    FEMA awarded very recently a major risk map production and 
technical services contract, P&TS, to a joint venture, 
BakerAECOM, LLC, about a $600 million contract. That is--that 
is a lot of money.
    I understand, in light of the President's announcement 
yesterday on opportunities for small businesses, this is a good 
example of a contract that could have gone to a lot of small 
businesses that some of us think got bundled and it cut out a 
lot of good, hardworking folk.
    Can you assure us that, in light of the President's 
Executive Order yesterday, that FEMA will look closer at giving 
small businesses a shot at some of this work?
    Mr. Fugate. Mr. Chairman, and I know that other Members of 
this committee have tasked or asked that we do very similar 
things. To the best of our ability, I have asked my acquisition 
shop to embrace a philosophy of buy local, hire local, that 
both in our disaster and our contracting, to try to look at 
purchasing the needed goods or services in the area we are 
working.
    I think that we are too leveraged to these larger contracts 
that are National in scope. In some cases, there are very valid 
reasons. But when there is not a valid reason and opportunity, 
I think that, in the name of efficiency, we oftentimes will 
aggregate up large contracts and maybe miss the opportunity to 
get good work done locally by a local provider.
    Mr. Thompson. Well, I will tell you what we hear. If the 
person gets paid for managing one contract, why should he go 
out and put 8 or 10 on the street, and we pay them the same 
thing?
    Now, that is how we end up with a $600 million contract, 
because you have one contract. I think it is the mindset that 
we have to change within our agencies to look at the backbone 
of this country is small businesses. If we are going to cut 
them out like we do, it really goes against the grain.
    For the work that is being done, I don't think it is so 
technical that we don't have small businesses who can do it.
    Mr. Fugate. Mr. Chairman, I would appreciate any help we 
can get in this area, because I think you hit upon the crux of 
it. We have looked for efficiencies in doing our contracting 
for so long, trying to change that dynamic and look at 
contracting so that it is more based upon where we are doing 
the work and getting to the issue of: Is it always in the best 
interests of the country to have the most efficient 
administration of the grant or provide opportunity for smaller 
businesses that would not normally be competitive on a National 
level?
    Mr. Thompson. Thank you.
    Thank you for being so patient, Madam Chairwoman. I yield 
back.
    Ms. Richardson. The Chairwoman now recognizes other Members 
for questions they may wish to ask the witness. In accordance 
with our committee rules and practices, I will recognize 
Members who were present at the start of the hearing based on 
seniority on the subcommittee, alternating between the Majority 
and Minority. Those Members coming in later will be recognized 
in the order of their arrival.
    The Chairwoman now recognizes for 5 minutes the gentleman 
from Louisiana, Mr. Cao.
    Mr. Cao. Thank you very much, Madam Chairwoman.
    Mr. Fugate, I am one of the few Members who probably plays 
FEMA every time I see the group working in the New Orleans 
area. I believe that you have assembled a very responsible, a 
very competent team in the Second District, and we have made 
great strides in the past year-and-a-half in dealing with the 
many recovery issues that we have down there.
    But I still have one very serious concern with respect to 
FEMA in regards to the community disaster loans. Before FEMA 
issued the regulation, you all requested comments, and we held 
a roundtable in which we gathered comments and submitted them 
to FEMA.
    It seems to me that many of those comments were not 
considered, so that there are potential problems for many of 
the entities in requesting for community disaster forgiveness, 
especially in areas--with respect to Jefferson Parish, with 
respect to St. Tammany.
    I spoke to, for instance, Sheriff Newell Norman of 
Jefferson Parish who conveyed to me that his concern with 
respect to the 3-year requirement, which is not only 
problematic for the sheriff, but also problematic for New 
Orleans school board, problematic for Jefferson, problematic 
for St. Tammany, because right after Hurricane Katrina, there 
was a tremendous influx of population into Jefferson Parish 
from the people moving into the parish from New Orleans, so 
that there was a spike in revenue, and then that spike quickly 
disappeared after people began to move back to New Orleans.
    So that is one of my concerns, and I have asked the 
Secretary to address the issue. I just want to know whether or 
not FEMA will submit revised regulations to address the issue 
of the CDL. That is one issue in connection with the community 
disaster loans.
    The other one in regards to the special CDL, which I have 
asked FEMA to look into for over a year now, and I have not 
received a response, or at least not an accurate response, in 
connection with Osner's request for a special CDL. It seems to 
me that reading their letters, reading their memorandum that 
they submit to you, that they conform to the law and that under 
the law they would be eligible for special CDL.
    So far, I believe that FEMA either denied or have not 
provided them with a special CDL. Can you address those two 
questions?
    Mr. Fugate. I will start with Osner. I know that that one 
was one that we had a lot of difficulty with. I don't know if 
there has been a final determination. I think there was, but I 
will have the administrator for region VI, Tony Russell, 
confirm that.
    As far as the community disaster loan forgiveness that the 
rules were designed to help, we are looking at that at the 
Secretary's direction. We are seeing as to the unintended 
consequences of that rapid population growth and what that 
means to the actual intent of the rule. So we are continuing to 
work that issue.
    Mr. Cao. Can you give me a time line with respect to when 
any revised rules would be issued?
    Mr. Fugate. At this time, we have not begun any revised 
rules. I think we are looking at the applications to actually 
go through the applications to see where we are going to have 
the problems versus acting before that.
    So as we go through that, we are going to see how many of 
the communities will go through that process and what those 
outcomes are and then determine from there what additional 
steps we would have to take.
    Mr. Cao. Okay. Have you at least in the past year--what 
plans or what reforms have you implemented in order to better 
prepare FEMA for recovery, to better effectively and 
efficiently work with local--with State and local 
municipalities in rebuilding, because as you can see from the 
arbitration panel's decisions on charity and other projects 
that were submitted or were delayed by FEMA, they were able to 
make the decision in a span of 2 to 3 weeks, while it took FEMA 
years to make any kind of decision whether or not they made a 
decision.
    Have you made any kind of plans to reform FEMA in those 
regards?
    Mr. Fugate. Yes, sir, and part of it was--I believe in all 
of the arbitration hearings, the only ones that I know of that 
have gone in favor of FEMA have actually been on 
technicalities. Almost all of the other ones were, again, if we 
had followed our procedures, we would not have reached that 
point.
    So it reaffirmed that, in many cases, FEMA had the 
authority. It was the application of the Stafford Act and the 
CFR. So part of what we were able to do, when Tony Russell was 
managing the Louisiana recovery office, was to move a lot of 
projects through that had previously been backlogged that would 
have otherwise been in arbitration.
    I think the ones that were in arbitration were so far 
along--one of which, we actually, I believe with Jefferson 
Parish, came back on roads and we settled, because after 
reviewing it, we were asking, why were we even challenging 
this? This is something we could do. Why hadn't we done it?
    So part of it is coming back and making sure that we are 
actually applying the Stafford Act and the CFR in the manner it 
was intended and getting past some of the challenges we saw in 
the Katrina response.
    Ms. Richardson. The gentleman's time is expired.
    The Chairwoman now recognizes the gentleman, Mr. Cleaver, 
from Missouri, for 5 minutes.
    Mr. Cleaver. Thank you, Madam Chairwoman.
    Mr. Fugate, I want to return somewhat to the beginning of 
the questions that came from Chairwoman Richardson with regard 
to the Citizens Corps. Actually, I tend to think that 
standalone emphasizes the significance of an entity. In your 
budget, you talked about the importance of the Citizens Corps 
program.
    I am on Financial Services. I am one of the proponents of a 
stand-alone financial consumer protection agency, because I 
think it says to the consumers, this is--you are important, and 
we wake up every morning and this is our job, to protect you.
    So with regard to the Citizens Corps program, do you--is it 
your belief that this program is important enough, significant 
enough that the public will understand that you intend to 
engage citizens in preparation for natural disasters at the 
highest level possible, No. 1?
    I am--if it is--if it is ranked so highly, as you have 
ranked it, I don't understand how it could then lose its stand-
alone status. Can you help me a little, please, with that?
    Mr. Fugate. Yes, sir, again, it was not the intention to 
demote programs, but to consolidate the grant application and 
grant management of those programs. That was the intention. The 
intention wasn't to demote programs.
    Mr. Cleaver. Okay. Does that enhance the program if you 
consolidate the grant process? I am trying to--I mean, I want 
to be supportive of what you are doing, but it doesn't 
register.
    Mr. Fugate. Well, as a State, when I was a State 
administrative agent, each one of these grants would be a 
separate grant application. It would be my same staff. We would 
literally go through and submit for all of these grants the 
same type of documentation, but for each different category. 
The intention is not to demote or to end up in a situation 
where we are taking away from programs, but to streamline the 
grant application process, rolling them together.
    As the Chairwoman points out, that does, though, carry the 
caveat that they lose their identity. There is some flexibility 
for the States. That may not be the intention of Congress in a 
stand-alone funding.
    But the intention was not to demote them. It was to reduce 
the amount of grant applications and the grant management for 
each one of those grants separately.
    Mr. Cleaver. But how are we going to increase citizen 
participation with less emphasis on the Citizens Corps?
    Mr. Fugate. Well, again, sir, I don't think it was our 
intention that less emphasis. It was more on the grant process.
    Mr. Cleaver. So are you saying that we are going to have 
optimum emphasis and that the only recognizable change will be 
on the grant application?
    Mr. Fugate. That is the intention of doing this, this way. 
It is not my intention that we would somehow not put emphasis 
on these programs.
    Mr. Cleaver. I am sorry. I didn't mean to--can you 
understand, you know, how this might not come across that it is 
as important as it once was?
    Mr. Fugate. Absolutely. Having been on the other side, I 
have also shared concerns when programs were merged together 
with a grant guidance equally described the programs that were 
being merged, and would they continue their role? It is a 
balancing act.
    Again, it is a recommendation to reduce the number of grant 
applications, but it is also--as you were pointing out--a 
balancing act between the intent of the program and the funds 
and not losing that clarity and trying to combine the grant 
application process.
    Mr. Cleaver. Okay. I am still not really happy, because, I 
mean, if you consolidate me and Ms. Titus on this committee, 
one of us is not necessary. You know, I mean--I just--my fear 
is that this program is maybe unintentionally de-emphasized. 
Maybe we can talk about this later.
    I yield back, Madam Chairwoman, the balance of my time.
    Ms. Richardson. The Chairwoman now recognizes Mr. Olson 
from Texas.
    Mr. Olson. Thank you, Madam Chairwoman.
    Thank you for coming today, Mr. Fugate. Good to see you 
again.
    Quick question for you, sir. My question concerns an 
interest of mine in the Shoreacres town that was affected by 
Hurricane Ike about a year-and-a-half ago. They have recently 
been notified that they are going to have to be charged rent 
for the FEMA trailers that they are occupying and they have 
been occupying since the storm.
    This is only six families in these trailers, so it is not a 
big part of the community, but it is a small little community. 
Unfortunately, they have gotten caught in this pickle. Right 
now, HUD has yet to release the second round of CDBG funds. So, 
because of that, they can't rebuild their homes and move out of 
the trailers, and they are stuck in the trailers right now.
    The controlling CFR states that FEMA may charge rent after 
18 months. As I read it, it doesn't say that they must charge 
rent, but unfortunately, that is the way it has been 
interpreted. They are looking at the situation right now. They 
are going to have to be charged rent.
    They are going to be paying rent that they really don't 
have and shouldn't be--shouldn't have it imposed upon them, 
because we have heard from interest in--that were affected by 
Katrina in New Orleans in particular. They are still living in 
some FEMA trailers, you know, 4 years after the fact.
    I just wanted to get your opinion or get the commitment to 
you to look into this situation and treat these people--
because, again, it is a small group of six people, but very--
six families, I should say--but very important to them that 
they get this interpreted--as I read it, you know, FEMA may 
charge for rent, but, again, what we are hearing from the 
people within the region that they must charge rent.
    Again, any help I can get to alleviate this financial 
burden until they get the CDBG funds, I would greatly 
appreciate that.
    Mr. Fugate. I will ask staff to work with your staff. The 
intention is to begin after a certain time frame, start moving 
to a rent-based process. As you point out, that is something we 
did, but I will ask staff to work back with you on this 
particular case with these six families.
    Mr. Olson. Great. I thank you very much for that 
commitment. I ask you to expedite that to the greatest extent 
you can, because their rent is going to be due next week, from 
what I understand, and they have gone through a lot. We don't 
need to pose an additional financial burden on them, especially 
when other people in the country are getting a deal that they 
are not getting.
    Thank you so much. I yield back the balance of my time, 
Madam Chairwoman.
    Ms. Richardson. The Chairwoman now recognizes for 5 minutes 
the gentleman from New Jersey, Mr. Pascrell.
    Mr. Pascrell. Thank you.
    Mr. Fugate, before I get to the main subject of my 
questions today on contracting, I need to respond to a couple 
of the answers that you provided the Chair, as well as the 
Ranking Member, on the fire grants in the SAFER grants.
    Your response was to the latter that this could be in 
response since the economy is getting better. The SAFER Act was 
enacted before the recession. The 9/11 legislation--excuse me, 
the Fire Act became law before 9/11.
    So when we look at how many applications--because I am very 
familiar with both of these; I wrote both of them. Now, if you 
understand how many applications--and I know you do--come in 
for both of those, we can only fund a small percentage.
    Unless I was to conclude that there is a huge charade going 
on in our fire departments about what they really need, but 
knowing quite well what the needs were--what was requested back 
in the year 2000, I can assure you that these are very concrete 
needs, and the administration does not know what it is talking 
about. I don't know how else I can say it.
    Mr. Fugate. Understood.
    Mr. Pascrell. Now, I want to say this about FEMA. We just 
had a pretty big disaster up in my neck of the woods, in north 
Jersey. We suffered the worst flooding we have had in God knows 
when.
    The President made an expedited declaration--we thank him 
for that--on April 2, which will allow the victims to make 
claims for Federal aid.
    I want to express my sincere appreciation to you and to the 
team that came into our areas. I was with them. I walked the 
streets. They were professional. You know when people say nice 
things about the Federal Government now, you take note, because 
you don't hear it too frequently, Mr. Fugate, correct?
    Mr. Fugate. Yes, sir.
    Mr. Pascrell. But I want to tell you, they did a great job, 
and they are doing a great job in responding to what is a very 
difficult situation. I hope we can count on being able to work 
with your office to help resolve some of the problems that have 
occurred.
    Now, Administrator Fugate, the issue I want to bring to 
your attention is the way in which FEMA has been handling the 
contracting of flood mapping. We have talked about this before. 
It is essential to the way that floods are anticipated, 
handled, and the way in which aid is disbursed.
    I have one letter here which was sent on April 22. It was 
signed by 65 Members of Congress, including myself and full 
committee Chairperson Thompson, which expresses a litany of 
concern with how the flood map modernization program is being 
handled.
    I also have here letter two from March 12 of this year sent 
by Chairman Thompson to you expressing concern with how the 
award for the Risk MAP production and technical services was 
decided by FEMA, which seems to favor very large National 
firms, while pushing out more local firms, small contractors.
    On March 16, the record will show that David Garratt, 
associate administrator for FEMA, testified in this 
subcommittee on your initiative to delegate authorities from 
FEMA headquarters to the 10 FEMA regional offices. I support 
that. In fact, I asked him specifically on my belief that FEMA 
National should be giving regional offices greater control over 
choosing local contractors for regional projects.
    His response--and I am quoting from the transcript--``I 
think it is a great idea, Mr. Pascrell.'' He went on to say 
that there is ``a plan to put an individual in each region who 
would be part of an essentially collective team, but located in 
each region, which would be local business engagement personnel 
for the right purpose of reaching out to and engaging local 
contractors in a way that we haven't necessarily done before.'' 
He concluded by saying, ``We think that is a terrific idea.''
    So my question to you is this: Do you agree with the 
associate administrator's assessment of the proposal regarding 
the selection of local contractors? Don't you believe that 
local FEMA people on the ground better understand what is 
needed than decision-makers in Washington, DC?
    Mr. Fugate. Yes, sir, I gave him that direction.
    Mr. Pascrell. So, therefore, we can hope that this is going 
to be implemented, is being implemented?
    Mr. Fugate. Yes, sir.
    Mr. Pascrell. When?
    Mr. Fugate. I will have the time line on that--one of the 
things we are working on is identifying existing open positions 
within FEMA that do the contracting work that could be 
certified as a certified contracting officer, reallocate those 
positions to each one of the FEMA regions, and then hire a 
position into that that would be under the acquisition office 
and would be certified to do acquisitions within the regions.
    Mr. Pascrell. Well, if you do that, Mr. Fugate, that is 
going to be revolutionary, and I wish you the best, and I thank 
you for keeping your word.
    Mr. Fugate. Yes, sir.
    Ms. Richardson. The Chairwoman now recognizes for 5 minutes 
the gentlewoman from Nevada, Ms. Titus.
    Ms. Titus. Thank you, Madam Chairwoman.
    Thank you, Mr. Fugate, for being back with us. I have two 
issues I would like to raise with you. One is at last year's 
budget hearing I brought up the point that the massive size of 
Region IX, which is where Nevada fits, causes some problems. 
Not only is it so large, but it is also very diverse. You noted 
that it would be worthwhile to revisit this regional structure.
    It seems to me that the response has been now to give more 
authority to the regional offices, which I certainly support, 
but I wonder if that alone does address the size problem, and 
if you are now over that, or you have done all you are going to 
do, or if that is still something that we can look at or how 
you think maybe these power changes will counterbalance the 
massive size.
    Then the second thing I would ask you to address is that 
this year's National level exercise was scheduled to be 
conducted in Las Vegas, and it was canceled for a lot of 
reasons, both political and policy. I wrote to the Secretary at 
the time to voice some of the concerns of my constituents.
    You know, many leaders in the tourism industry just didn't 
think the timing was quite right, when we were trying to get 
that industry back up on its feet to have something that was 
going to kind of be billed as DHS prepares for a nuclear attack 
on the Las Vegas strip.
    So it was moved, but I wonder if, as you look at having 
these tests in the future--which I think are very valuable. We 
have got to be sure our communities are protected--if you 
learned anything about what happened last year that dealing 
with unintended consequences and how you plan to incorporate 
what you learned into future plans for these tests?
    Mr. Fugate. Well, ma'am, I will go to the first question, 
which was on the regions. That is actually something that we 
are addressing within DHS as part of our bottom-up review 
process. So rather than FEMA look at this individually, we are 
looking across all of the DHS components.
    Many of our regions are based upon our mission with the 
Coast Guard and Customs and Borders. Others are geographical 
regions that were established previously. FEMA's regions were 
established in 1979 when FEMA was formed, so we are looking at 
two issues.
    One is, can we realign regions within DHS? The second thing 
we are looking at is, if we cannot do that, can we align any of 
the headquarter elements?
    So we are not going to address this as a FEMA-specific 
issue, but as part of the bottom-up review within DHS and take 
a look at our regional structures and looking at that across 
all of the DHS components.
    As far as the National level exercise, not only was it the 
change in venue, but it was also the scope and the intention of 
these exercises. One of the things that Secretary Napolitano 
was concerned about when she interviewed me in our first 
meeting was the very essence of these exercises. How well are 
they doing their job? After-action reports that take too long 
to get into the hands of the participants. Also, what was the 
objective of these exercises? Was it just to do, you know, 
everything is going to happen, or are we really trying to test 
the system?
    We have looked at this year's exercise. We have adjusted it 
based upon the guidance. We have had change. But we have also 
submitted the Secretary a way forward that, upon her approval, 
we would be happy to share with the committee on how we are 
going to look at our National level exercise program and do a 
better job of integrating that with State and locals, as well 
as the private sector and the public.
    Ms. Titus. The unintended consequences, like the impact on 
the local economy? Is that going to be part of the 
consideration?
    Mr. Fugate. Yes, ma'am. Again, it comes back to if the--
what are we trying to do with the exercise? What are we testing 
in this exercise? Then how does that impact the communities?
    Next year's exercise will be an earthquake scenario based 
upon the New Madrid earthquake. So, again, we have to factor 
in, from the standpoint of Governors team, what they see as 
their issues, their concerns, and, again, in doing these, 
putting the focus back on the participation that these are not 
just a DHS-generated exercise. It actually impacts local and 
State governments when we do these exercises.
    Ms. Titus. I appreciate that.
    Thank you. I would yield back.
    Ms. Richardson. Thank you very much.
    Mr. Fugate, let me come back to my first two points, and 
then I have several others. It looks like we are going to have 
time for other Members to chime in, as well.
    Let's go back to the SAFER grants, as well as the 
firefighting grant. You mentioned that, you know, in 
considering local funding versus long-term Federal funding, I 
think it is no hidden secret that currently when you look at 
State and local governments, some of the biggest areas that are 
under tremendous pressure are the possibility of laying off 
firefighters, teachers, and so on.
    So in light of that, are you prepared to reconsider the 
recommendation of cutting by $200 million, since when we know 
these States and the local governments do not have the money in 
this short-term perspective to fund adequately these programs 
that are needed?
    No. 2, I want to re-clarify again that the question I asked 
you was to provide us with the number of terrorist trainings 
that had already occurred, and the (B) part of that would be to 
let us know if any of the new plans--new terrorist trainings 
that you are planning, have they already been done someplace 
else?
    Mr. Fugate. Back to the first question, we are committed to 
the President's request for the amount of funds that R&D 
requests of the President's budget. As to the second part, we 
will provide that information based upon your clarification of 
what has occurred, what is occurring, and what would have been 
done elsewhere, and we will get that information to you.
    Ms. Richardson. So in your opinion, are you saying it is 
more important to do the $200 million terrorist trainings, even 
though you can't tell me right now how many you have already 
done, than providing funding for our local first responders?
    Mr. Fugate. I will submit the questions as you have asked 
for the numbers; I don't have those. But we are, again, based 
upon the President's recommendation, that is our 
recommendations for the budget.
    Ms. Richardson. Okay. My second question is, let's get back 
to the consolidation of the homeland security grant program, 
building upon what I said, Chairman Thompson, and Mr. Cleaver, 
as well.
    You have said a couple times now that it is not your 
intention to demote the programs, and yet I will come back to 
my question to you. If your intention is not to demote the 
programs themselves, are you prepared to commit to ensure that 
those programs still receive the funding that they have had in 
the past?
    According to my notes, it is $13 million for the Citizens 
Corps, $41 million for medical response, $50 million for 
interoperable emergency communications, and $50 million for 
driver's license security grants.
    Mr. Fugate. I would have to go back and make sure that 
those numbers add up to our current request before I could 
commit to that.
    Ms. Richardson. I am sorry. Could you repeat that? I was 
talking to Mr. Rogers.
    Mr. Fugate. I would have to add those numbers up and make 
sure that those numbers reflect the actual request that the 
administration had for the consolidated grants, but that ratio 
sounds like the right ratio.
    Ms. Richardson. Okay. Do you--if it is possible, staff, 
this is pretty important, because for many of us here--I don't 
know. I see some of your staff that is here present, and I 
think the number was a difference of 6 million, is the notes 
that we have.
    It gets to the core of the question. If, in fact, what you 
are saying is all you are intending upon is to make the grant 
application process run smoother, less duplication, and all 
that, I think from what I have heard of the comments so far, 
people are supportive of that.
    However, if it means eliminating programs, eliminating the 
focus, and reducing the funding, the commitment of the funding 
of what those programs will have, I don't think you are going 
to have support of every Member here, and maybe Members on the 
floor, as well. So the question is very basic and it is very 
important.
    Mr. Fugate. As soon as we can add the numbers up, I would 
not have a problem with that. I just want to make sure that the 
numbers add up to the total request.
    Ms. Richardson. Okay, Mr. Fugate, I would like to, if 
possible, this committee to have the information tomorrow 
morning. The reason why we don't have a lot of time here, as 
you know, the appropriations is before all these committees, 
and we have to make decisions, and we can't wait.
    I do think--I would push back--I think it is something your 
staff that is right behind you could do right now, if you 
chose.
    My next question has to do with the budget decreases for 
FEMA's urban search-and-rescue teams, which have done a heroic 
job. Most recently we saw what they did in Haiti. Why has the 
administration chosen to cut funding for this program, when we 
know how valuable they are to the rescue mission? Also, can you 
state for the record whether States will continue to be allowed 
to use homeland security grants to maintain and strengthen 
their USR teams' operational readiness?
    Mr. Fugate. The request for funding for the urban search-
and-rescue teams is concurrent with the request the 
administration made last year. To the commitment of using 
homeland security dollars, we continue to do that, and that 
will be one of the areas that we continue to support as one of 
the things that is eligible under urban security, as well as 
for State homeland security grants.
    Many States have additional teams that go beyond the 
existing urban search-and-rescue teams, and many of those 
actually deploy in both the Alabama and Mississippi tornado 
touchdowns.
    Ms. Richardson. Mr. Rogers. Mr. Rogers is asking the 
question that I was asking regarding the consolidated. Were 
they intended to be cut? My understanding--and Mr. Fugate can 
clarify--it is not that they were being cut. What he is saying 
is, of the--I think it is $160 million--they were going to put 
it in another bucket in the overall category of the homeland 
grants.
    But the problem is that, by putting it in that overall 
category, that would give the State then the discretion to say, 
I am not going to do any Citizens Corps. I am only going to do 
driver's license. That is the problem, and that is at the heart 
of what the question is.
    Mr. Rogers.
    Mr. Rogers. Thank you very much.
    In looking at your written testimony, Administrator Fugate, 
you talk a lot about the important role that individuals play 
in disasters, and I fully agree with that. However, it is 
difficult to see how your budget actually prioritizes 
individual preparedness. The RITI campaign budget is cut and 
only requests three FTEs. The Citizens Corps grant program is 
eliminated. FEMA hasn't developed a workable strategy for 
community preparedness.
    How do you recognize those shortfalls with your No. 1 
objective?
    Mr. Fugate. Again, working within the budget that we have 
and looking at what we are requesting, we are trying to work in 
a fiscally austere environment and make recommendations based 
upon where we need to invest our dollars. The investment 
strategy is not always going to reflect putting money in all 
these programs.
    We have to make some decisions about where we are going to 
make--reductions. Unfortunately, that was what we faced this 
year.
    Mr. Rogers. Let me ask this, then. What can you point--
money in individual preparedness?
    Mr. Fugate. In the overall budget, that is not going to 
show up. We put our money this year for the first time in our 
infrastructure for the Federal facilities that were not being 
maintained, and we didn't have growth then.
    Mr. Rogers. So individual preparedness is no longer your 
No. 1 stated goal?
    Mr. Fugate. No, sir.
    Mr. Rogers. Okay. How can we help with that? I want to help 
you get to your No. 1 stated goal. What could this committee do 
to help you? The Chairwoman has already talked to you about her 
desire to do it. I want to do the same.
    Mr. Fugate. Again, I see your guidance on the grant 
programs. If it is the intention that--and the consolidation 
reduces visibility, and you keep it in individual funding pots, 
that is certainly something that this committee could 
recommend. We will administer it as it is appropriated.
    Mr. Rogers. Okay.
    Mr. Fugate. But I understand the desire to keep funds 
available and to be able to track what dollars are going where. 
Again, we had to make recommendations based upon guidance that 
suggested that we were not going to be able to fund everything 
at levels that had been appropriated and stay within 
recommendations for the request from last year as our guidance.
    Mr. Rogers. You know, that surprises me to hear you--and I 
don't doubt that that is true. I am just surprised, because the 
President has said earlier this year that, while there is going 
to be austere cuts made, defense, homeland security, and 
veterans affairs were going to be left alone because of the 
unique challenges we face as a nation right now in this 
dangerous world.
    So I am surprised to hear that you are being directed from 
the White House, when the President has said homeland security 
is off the wagon, as far as those cuts.
    Mr. Fugate. Well, considering where my counterparts are at 
the State level, I think we were very fortunate, and we are 
very much appreciative of the recommendations that we did get 
to go forward with. Again, it is a situation where we have the 
funding request before you. We will seek the approved budget. 
We will operate within our budget.
    Mr. Rogers. Well, I think you have told me what I need to 
know. We need to help you help yourself, right?
    Mr. Fugate. The system and the process of building budgets 
is, we make the recommendations, but it is ultimately the 
Congress that makes the decision and the appropriations that we 
will then follow.
    Mr. Rogers. Understood. Thank you for the good job you do, 
Mr. Fugate.
    Ms. Richardson. Mr. Cleaver is recognized for 5 minutes.
    Mr. Cleaver. Again, thank you. I just have one final 
question, Mr. Fugate, and thank you for being here today. I 
appreciate it.
    I have been on the subcommittee for two field hearings in 
Louisiana and Mississippi as a result of Katrina and Rita. It 
turns out that minority communities and, in some cases, new or 
poorly speaking English communities end up getting the worst of 
it, and there are probably a lot of sociological and even 
political reasons for it.
    But I am wondering whether or not you have plans or are 
working on plans on how to address the unique problems caused 
by a natural disaster and its impact on minority communities 
and non-English-speaking communities?
    Mr. Fugate. The first step we have been engaging in is more 
outreach to constituency groups through the White House. We 
have several opportunities to speak to different constituency 
groups about these issues.
    Philosophically, the way I approach this is this way. We 
have this tendency to plan for disasters based upon certain 
assumptions. If you fit those assumptions, our plans work very 
well.
    What I keep finding is, we are planning for generally 
middle-class, high school or higher education, English as the 
primary language, and they have enough resources that generally 
the Federal programs can help augment that.
    But that is not the targeted population that we are most 
concerned about. Our most vulnerable citizens tend to be those 
that have the fewer resources, they're poor, they have language 
challenges, they maybe are children, they may be elderly, they 
may be people with disabilities.
    So in doing our planning, what we have historically done 
is, after a disaster, we will write an annex to our plan to 
deal with that at-risk population. I am trying to change that 
dynamic and go, well, that is who we should be planning for it 
in the first place.
    When I talk about people need to get a plan and be 
responsible for themselves, it is getting at the crux of that. 
If 80 percent of us should have taken care of ourselves, the 20 
percent that didn't have a chance--and that is just an 
arbitrary number, because it depends upon the community you are 
in--why should they compete with me for resources when I should 
have taken care of myself, if I am able to?
    This goes back to looking at and planning for the whole 
community, not just what is easily seen, not just is what is 
presented in a disaster. You oftentimes have to actually go out 
and find folks that may have been overlooked in that disaster.
    But if I am in a situation, we are working with State and 
local governments, so many people who didn't get ready in the 
first place are now competing with that population, it is very 
difficult to get to them in time.
    Mr. Cleaver. Well, you are--I agree with everything you 
said, 100 percent. So are we going to see some--are you going 
to internally deal with this issue or try to figure out how to 
address it?
    In New Orleans, for example, all the public housing just 
wiped out, just gone. I guess, is there an internal group that 
is working on how we address those problems?
    Mr. Fugate. Yes, sir, the first group we--right after I got 
in, one of the things that came out of the Katrina response was 
the fact that most of the programs in our delivery were not 
designed for infants and children. We weren't meeting their 
needs.
    The request from the children's commission was to actually 
go out and write a new plan to add to our existing plans on 
dealing with children issues. I suggested, why don't we come 
back and work this into our program itself, instead of writing 
a separate plan? There was not a lot of confidence that that 
could be done, because they wanted to have that issue 
identified in a way that would present these challenges.
    I said, well, my history tells me, though, that for local 
and State government, every time they have to write another 
annex to the plan, they don't get to it. But if they do it on 
the front end and they build it into their plan, it gets done.
    So we took the issue of children, building that into our 
planning guidance so that children--or in our grants. It was 
like supplies for shelters. We and Red Cross will provide 
supplies for shelters. Well, the commission for children 
actually came up with a list of things from bassinets to 
bathtubs that we are building into our contracts for shelter 
supplies that the Red Cross is using so that if we have to 
provide supplies to a State, we actually have supplies for 
children.
    So we are trying to address it in that way and recognize 
that, if we are not working through constituency groups and 
identifying that Government entities may not have all the 
information in a disaster area, we may not get to the most 
vulnerable.
    Ms. Richardson. Thank you, Mr. Cleaver.
    Mr. Fugate, I am going to--let me first ask the general 
question. Has any work been done so far looking at cuts in 
terms of waste, fraud, and abuse amongst contracts and outside 
services that are being done in FEMA?
    Mr. Fugate. There are, I believe, some--as you saw with one 
of the examples with the National Flood Insurance Program, 
where we specifically asked for an IG report on that. There are 
several others that are looking at those various things.
    Internally what we found was that we did not have--as much 
as we are trying to empower our regions, that within the 
various programs of FEMA, we did not have any centralized 
management structures to oversee complex projects. IT 
infrastructure, chief financial officer acquisitions and 
management was actually being done in many of the various 
pieces of FEMA without any coordination across FEMA.
    So we took the recommendations from the IG, and one of the 
steps we took was to form at FEMA headquarters a management 
council that has responsibility for overseeing projects of a 
certain size to eliminate one duplication within FEMA, but also 
to make sure that they had the right institutional controls, 
whether they be fiscal, whether they be IT, and that they 
conform to Federal regulations and DHS policy and guidance.
    That was not occurring. It has started to show some 
results. Where we can find savings and we can eliminate 
duplication, we are trying to use those funds to put them back 
into the system.
    One example is we have very few training dollars for our 
staff. Well, one of the things that had happened in looking at 
some of our efficiencies--and this isn't so much fraud and 
waste. It is just bad business.
    We would turn on numerous cell phones. We would put in IT 
lines for disasters that after the disaster nobody turned off. 
So we went through a process of just shutting down--this goes 
all the way back to Hurricane Isabel, back, I think, you know, 
around 2003, that we had IT, you know, T1 phone lines installed 
that nobody had turned off. We kept paying the bill, because 
the bill came in, because the acquisition folks got a bill. It 
was--it looked good. They paid it. But the operational folks 
that had put in that phone line or that T1 line had never 
turned it off.
    That alone saved us millions of dollars which we took $3 
million to put that back into training for our staff, because 
we didn't have enough money for our training staffs.
    So it is looking at not only waste or looking at fraud, but 
really looking at, just how are we running these disasters and 
making sure that, when we close a disaster out, it isn't just 
we are done physically, we actually recover our property, we 
actually turn off things, we recover cell phones. When we can't 
recover the cell phones, we turn them off.
    These were things that we were not doing consistently. Just 
coming in and looking at this, we have already seen--and these 
are millions of dollars--the only unintended consequence was I 
turned off my deputy administrator's cell phone twice, but it 
is working again.
    But in some cases, we actually got to the point where 
nobody would take ownership of a certain IT infrastructure, so 
we just turned it off. Surprisingly, nobody claimed it, and it 
was being paid for year after year after year because nobody 
questioned it.
    Ms. Richardson. So, Mr. Fugate, I think I recall reading 
somewhere in the maps material that we had that you did have a 
slight increase for management and some of the things that 
needs to be done. Would you be willing to consider looking at a 
possible audit or some sort of evaluation similar to what you 
are doing with the disasters, with some of your contractors?
    DHS, that Department as a whole, I think, has the largest 
amount of contractors of anyone besides the Defense Department 
and would venture to say that we could probably save about $200 
million for fire grants if we did some of those basic things.
    Mr. Fugate. I understand that there are legitimate cases to 
be made for using contractors to do work that is not inherent 
in Government, but I also look at my organization and I see 
much work being done by contractors that I have to ask the 
question, is there not a conflict of interest, particularly in 
areas like acquisition?
    So in this request, we have requested converting 
contracting positions into full-time equivalents for FEMA based 
upon the current allocation of funding. So we would welcome a 
look at this. It is one that I have found myself wrestling 
with, as what is the right balance of contract support versus 
what should be inherently done in Government?
    I don't start off with a premise that all contracts or all 
contractors are inherently not good, but I do want to make sure 
that, as we as Government officials have not contracted out our 
responsibilities, that merely those things that the private 
sector can provide better, cheaper, and with less start-up time 
than necessarily would be invested by Government and staff 
doing it.
    Ms. Richardson. Mr. Rogers. Okay. I have just a couple 
more, and then I believe we had requested time from 2:00 to 
3:30, so we are doing pretty good.
    I wanted to talk a little bit about American Samoa. As you 
know, I had an opportunity to go there. Recently last week, the 
inspector general came out with a report that showed that there 
was a $3.9 million award to partnership for temporary housing, 
PATH, to build as many as eight homes. In a meeting I just had 
prior to this one, I was told it was eight homes with seven 
something under construction.
    Either math, that gives you spending either $487,000 per 
home or $260,000 per home, which I think any American, 
particularly across the United States, would say that that is 
an abuse. Can you discuss PATH's experience in building single-
family homes and why we could not find a suitable--more 
appropriate contractor? Prior to awarding the contract, what 
type of due diligence did FEMA perform to determine exactly 
what it would cost to rebuild homes in American Samoa?
    Mr. Fugate. Well, based upon the original tsunami and 
estimates on the island that it would be about 150 homes that 
would need rebuilding or replacement versus repair, we looked 
at what existing contracts we had that could provide those 
services. The Federal coordinating officer based upon that, 
supported by the FEMA headquarters, issued a contract up to, 
but not to exceed--nor was it the intention that those $3.9 
million would be used to construct the pilot houses--to see 
what it was going to take.
    That number for total number of homes being built now has 
dropped down to 50. Based upon that, and the IG's report, I 
asked my deputy administrator, Rick Serino, to go to American 
Samoa last week, look at what was going on, talk with the 
Governor and the staff, and seek other recommendations, which 
include at this point, do we continue with this contract? Or 
because there are fewer homes that require rebuilding, will 
there be an opportunity to do one or two home contracts with 
some of the companies that are on American Samoa and re-bid the 
contract based upon the reduced scope of work?
    So we are looking at this. Those numbers are very large. It 
is a project that we are investing ourselves in to make sure we 
have a way forward.
    But the initial goal was, how could we get homes built on 
American Samoa when we looked at approximately 150 homes? What 
existing tools did we have at that time?
    Ms. Richardson. Well, with all due respect, Mr. Fugate, 
when you release an award that says up to $3.9 million for 
approximately eight homes, that allows that contractor the 
discretion to spend $3.9 million for eight homes. As I said, I 
don't think you will find too many people in the American 
public who would agree that that was an appropriate allocation.
    If you were talking about $3.9 million for 150 homes, that 
might be a different story. But to specifically say eight 
homes, $3.9 million, whether you say up to, you know, just 
below, the point is still the point. There is no reason why in 
American Samoa, where you also had an agreement where you gave 
people $30,000 in replacement of building a home, that you 
would suggest to me that you would need anywhere between 
$200,000 and $400,000 for a home.
    So let's just suffice to say, I have a very serious concern 
with this. I look forward to working with you and other Members 
of the committee on this issue, but I think it is quite 
serious, and I think it is an example of my first question. 
What are we doing regarding waste, fraud, and abuse? Because 
this is a very real point.
    My second one, regarding American Samoa, what is FEMA doing 
to help American Samoa and other Pacific islands to build and 
maintain a robust alert warning system?
    Mr. Fugate. The tsunami occurred--and the question I asked 
was, what was the existing warning system? There had been plans 
done, but nothing implemented. The National Weather Service has 
a program I thought that would be a good project to utilize in 
American Samoa--called tsunami-ready communities, which is a 
combination of the ability to warn the public, but as well as 
that the public information to support steps to take, signage, 
and public information.
    So using that--it is not a certification program. But it is 
something the Weather Service created to help communities build 
good plans. So we have been working with the Governor of Samoa 
and the homeland security adviser there to build a program that 
would be recognized as tsunami-ready for the American Samoa 
island.
    That is a project we do in conjunction with the Weather 
Service, and that is something we set out after the tsunami to 
reach that goal.
    Ms. Richardson. So is it plans for them to get ready? Or is 
it an actual alert warning system?
    Mr. Fugate. It is a combination of, you have to have a 
warning system. You have to have education. You have to have 
the ability to receive those warnings and communicate those to 
the public. There has to be public information to support that 
designation, so these are all the things we are working with 
the island to build that capability.
    Ms. Richardson. Who is going to pay for it?
    Mr. Fugate. We are utilizing FEMA grant dollars and working 
with the Governor, because they will also receive hazard 
mitigation dollars, some of which can be used for this warning 
system to implement this on the island.
    Ms. Richardson. Okay, last question, and then I will submit 
the rest for the record.
    I am going to say something that is pretty alarming for me 
to say, but I think you need to hear, because it is not just 
unique to my situation. I think it is unique to many people.
    One of the things I would like to work with you on is 
continuity of Government. I can honestly tell you that, in my 6 
years of being a city council member in a community of the 
largest ports in the Nation, Alameda Corridor, airports and so 
on, a member of the State legislature, and now a Member of 
Congress, no one has ever told me, if something happens, what 
is it that is my responsibility to do?
    So what I would say to you is, I would like to work with 
you to better understand, what are we doing with continuity of 
Government? How can we make sure that that situation is 
changed?
    Because if I can tell you that as a Member, now 
Subcommittee Chairwoman of Emergency Communications and 
Preparedness and Response, that is an alarming fact. I think if 
you were to ask a whole lot of other people, they would say the 
same thing.
    So I don't know what we do in that system. We are looking 
into it. But I would seriously like to work with you on that 
area, because I don't think that it is working effectively, and 
I think situations like Hurricane Katrina, American Samoa, and 
so on, we could really reduce confusion and maximize our 
response if the continuation of Government was better in place.
    Which leads me to the American Samoa point. I also--I 
understand with Hurricane Katrina that with FEMA we needed to 
establish a point of contact, someone who could make decisions. 
But I think we also have to have a very serious discussion of--
if there are issues relating to that, what are the next steps 
and what are the things available to us?
    So, for example, if a Governor is more concerned about the 
debt that they owe to the United States Government, in terms of 
accepting various services, that is a problem, because that 
decision shouldn't be made based upon a prior debt that they 
have or what they think they are going to be able to afford. 
They should be providing the services that are necessary for 
the people that they have.
    So I personally witnessed many issues in particular 
regarding continuity of Government that I have found to be 
quite alarming and need your immediate attention.
    Mr. Fugate. Look forward to working with you on it. The 
challenges in American Samoa, as you know, we had pre-existing 
grant issues. It was our intention to not impede our response 
based upon that prior history, but it did provide some 
challenges, given some of the previous disasters and 
outstanding issues we were faced with at the time of the 
declaration.
    Ms. Richardson. So there should be some thought? I mean, it 
is not like we don't know who out there already owes us, so 
there probably should be some forethought that, if a disaster 
happens in Louisiana or American Samoa or wherever it is, what 
do we do if something happens, they already owe us? The 
Governor is concerned, ``I can't even pay what I already owed 
you.'' What do we do in those situations?
    What happens if the Governor refuses and really something 
different needs to be done? Who else has the ability to 
override and then make that decision?
    Mr. Fugate. Well, that is a question that we would struggle 
with, as well, because in our system, unless the Governor is 
not performing their functions and protecting the civil rights 
of their citizens, that is a very difficult question as to how 
the Federal Government would intercede.
    Ms. Richardson. But it needs to be discussed, because it is 
happening.
    Okay, Mr. Fugate. I want to thank you for your valuable 
testimony and the Members for their questions. The Members of 
this subcommittee may have additional questions. I actually do 
have some. But out of respect to you of you arranging and being 
so kind to adjust and come to us again, I am going to submit 
them for the record.
    We would ask that you would respond expeditiously in 
writing to those questions, preferably within 2 weeks. Hearing 
no further business, the hearing is adjourned.
    [Whereupon, at 3:40 p.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

 Questions From Chairwoman Laura Richardson of California for W. Craig 
                                 Fugate
    Question 1. The committee would like to understand how you intend 
to build on the successes of your first year and address the challenges 
still facing FEMA. With that in mind, what do you consider to be the 
agency's major successes in the first year of the Obama administration?
    Answer. FEMA and our intergovernmental partners have undertaken a 
number of initiatives to improve FEMA's ability to support our citizens 
and first responders to ensure that as a Nation we work together to 
build, sustain, and improve our capability to prepare for, protect 
against, respond to, recover from and mitigate all hazards. At the same 
time, we believe it is critical to remember that FEMA is only part of 
the emergency management team; we are not the entire team, and we must 
build upon the capabilities of our State, local, and private sector 
partners as well as our individuals and communities to meet the 
Nation's emergency management needs. Following are descriptions of some 
of the initiatives we have undertaken in Administrator Fugate's first 
year to address the challenges facing FEMA and its partners.
    To better meet the needs of grant applicants and States and to 
simplify the perceived complexity of the FEMA program guidelines, FEMA 
recently completed an aggressive review of all disaster assistance 
policies in the Individual Assistance (IA) and Public Assistance (PA) 
Divisions (apart from the normal 3-year cyclical review), to ensure we 
are providing these entities with the most appropriate and effective 
guidance. We also sought to identify policies that may be more 
restrictive than the law and regulations require and to ensure none of 
the policies maintain this restrictiveness or are in conflict with each 
other. In addition, an effort was made to identify any current policies 
that provide procedural information that could be better provided in a 
different form, such as a Standard Operating Procedure (SOP).
    Since January 2010 FEMA has reviewed 84 disaster assistance 
policies.
    We have also revised the policy-making process itself to increase 
public involvement and ensure FEMA staff apply guidelines in a 
consistent fashion. In addition, except in emergency situations, all 
revised Recovery Directorate disaster assistance policies are posted in 
the Federal Register for a 5- to 30-day public comment period. The 
policy development effort includes regular input from the National 
Advisory Council (NAC).
    FEMA has established pilot programs under the Public Assistance 
program to reduce Federal costs of providing assistance to State and 
local governments, increase flexibility in grant administration, and 
expedite the provision of assistance to States and local governments. 
FEMA was also able to undertake a pilot program under the Individual 
Assistance program that funded repairs to existing multi-family rental 
housing units in order to provide more cost-effective temporary housing 
to individuals and households affected by a disaster. The lessons 
learned from these pilots are being incorporated into FEMA's programs 
in order to improve performance and responsiveness in meeting the needs 
of disaster survivors in the years ahead.
    Another area in which FEMA has moved to improve agency performance 
is by reorganizing to support greater program integration and 
empowering its regional offices to ensure that program resources, 
responsibility, and authority are moved closer to our partners for more 
effective program delivery. The regions will be the focal point for 
interaction with our partners while headquarters will be more involved 
in providing guidance and resources to the regions.
    FEMA has also undertaken a number of initiatives that will provide 
direction for our efforts to meet the needs of disaster survivors and 
support recovery of communities that have been affected by disasters. 
These initiatives include the Long Term Disaster Recovery Working 
Group, the National Disaster Recovery Framework (NDRF), and the 
National Disaster Housing Strategy to provide a more robust, efficient, 
and cost-effective Federal program to meet the Nation's disaster 
recovery needs.
    In September 2009, the President charged the Secretaries of DHS and 
HUD along with 20 other Federal departments, agencies, and offices to 
examine issues associated with long-term recovery from disasters 
through the establishment of a Long-Term Disaster Recovery Working 
Group. The Working Group joined an effort started by FEMA in August 
2009, to develop the NDRF to establish a National structure for 
optimally coordinating recovery assistance.
    In keeping with the President's commitment to transparency and 
openness in Government, the Working Group launched an intense outreach 
effort to engage Federal agencies, State, Tribal, and local government 
leaders, recovery assistance providers, non-governmental organizations, 
private sector representatives and interested citizens from across the 
Nation in the shaping of the NDRF. This effort included:
  <bullet> 12 Video Teleconferences (VTCs) in 10 HUD and FEMA Regions;
  <bullet> 5 Stakeholder Forums in New Orleans, New York City, Los 
        Angeles, Salt Lake City, and Memphis;
  <bullet> Discussion Roundtables for professional associations and 
        academic scholars with expertise in disaster recovery; and,
  <bullet> Establishment of a dedicated website: 
        www.DisasterRecoveryWorkingGroup.gov, to allow 24/7 access to 
        learn about the initiative and submit comments.
    This public engagement initiative has helped to inform the 
development of the NDRF. The draft NDRF, which was released for public 
comment on February 5, 2010, is designed for all who are or might be 
involved in disaster recovery, and addresses the need for improved 
leadership, a coordinating structure, and pre- and post-disaster 
planning.
    FEMA has also been making use of numerous Web 2.0 tools including 
Facebook, Twitter, and YouTube, to provide the ability to create a 
social network before an incident. FEMA's strategy centers on 
cultivating a network of partners and the general public through useful 
preparedness information, agency updates, and mission-specific 
announcements. We have developed, and continue to foster and increase 
our network of fans and followers comprised of emergency management 
partners, the general public and FEMA employees prior to National and 
local incidents. Through daily informational posts, links, videos, and 
images, we describe the FEMA mission and share critical preparedness, 
response, and recovery information with a broad audience. This effort 
requires a persistent engagement through multiple site administrators 
who develop original content, strategically cross-market FEMA.gov 
initiatives and moderate public responses on the sites. There are 
valuable analytics inherent in these platforms. Most notably are the 
direct responses to content on the pages. These responses provide 
valuable insight into public reception of the message and the need for 
more information in specific areas.
    FEMA has started several technological initiatives focused on 
support to disaster survivors to include the following:
  <bullet> A National Shelter System (NSS).--This is a comprehensive 
        web-based, data system created to support Government and non-
        Government agencies responsible for shelter management and 
        operations. FEMA is working with and in support of State and 
        local agencies to implement a single Nation-wide shelter system 
        for managing information related to shelter facilities, 
        capacity, and population counts. The NSS provides a common 
        system for all levels of government and non-governmental 
        agencies to manage shelter facility data and provides a 
        standardized tool for establishing baseline shelter data that 
        is vital for comprehensive shelter planning and operational 
        support. The information shared in the database enables local 
        agencies to better manage all phases of the shelter process 
        (planning, alert, stand-by, opening, and closing), which can 
        have a direct effect on the disaster survivor.
  <bullet> The National Emergency Family Registry and Locator System 
        (NEFRLS).--This is a system that can be accessed through the 
        internet or by phone and can facilitate the reunification of 
        families following disasters or emergencies. The NEFRLS will 
        allow adults who have been displaced from their homes due to a 
        Presidentially declared disaster to register their own 
        locations electronically via the Internet or by telephone via a 
        toll-free number (1-800-588-9822). Registration is entirely 
        voluntary. The system will be used during catastrophic 
        disasters or those disasters with large numbers of displaced 
        persons.
    FEMA is also making critical data accessible in the form of data 
feeds. These data feeds are used to inform the public of the status of 
FEMA's emergency management efforts and provide FEMA management with 
improved situational awareness. Newly developed data feeds include:
  <bullet> Individual Assistance (IA) and Public Assistance (PA) 
        financial information.--The amount of IA and PA funds obligated 
        and approved, per disaster, is viewable and sharable over the 
        internet in the form of a widget.
  <bullet> Disaster Recovery Center information, such as location, is 
        viewable on the internet using a web mapping application.
  <bullet> PA total obligated grants and Project Worksheets per 
        applicant for all disasters since 1998 (NEMIS) is available on 
        data.gov.
  <bullet> PA Project Worksheet grants awarded for all disasters since 
        1998 (NEMIS) will soon be available on data.gov.
    FEMA also participated in an interagency task force responsible for 
developing and delivering a Disaster Assistance Improvement Plan (DAIP) 
that outlines a coordinated, actionable strategy to implement a 
consolidated and unified disaster application. Our interagency efforts 
have led to the development of the DisasterAssistance.gov website, 
which consolidates information about disaster assistance from multiple 
Government agencies in one place, making it easier for disaster 
survivors to research and apply for disaster assistance. 
DisasterAssistance.gov also provides news, information and resources to 
help individuals and families prepare for, respond to, and recover from 
disasters. If access to the internet is not available, disaster 
survivors still have the option to register for assistance by calling 
the Disaster Assistance Call Center at 1-800-621-3362, or 1-800-462-
7585 (TTY) for people who are deaf, hard of hearing, or have speech 
disabilities.
    FEMA continues to lead the 17 Federal partner agencies (please see 
attached list: ``Disaster Assistance Improvement Plan Partners''), who 
are developing the DAIP, to expand the capabilities of the 
DisasterAssistance website, improve user interface, and add new forms 
of assistance to help disaster survivors. An additional 22 forms of 
assistance have been added to DisasterAssistance.gov, for a total of 69 
forms of assistance now available. Additional forms of assistance 
accessible at the Federal, Tribal, State, regional, and local levels, 
as well as from private nonprofit organizations will be added to the 
portal in the coming months.
    In collaboration with FEMA's Web 2.0 team, DAIP developed a 
DisasterAssistance.gov widget for deployment to other local and 
National sites hosting disaster information. The widget directs 
survivors to disaster information and the application for assistance. 
DAIP recruited 47 State library associations to promote 
DisasterAssistance.gov and make informational materials available to 
disaster survivors across the country. Lastly, DAIP provided the 
finalized Business Requirements Document to the development contractor 
to optimize the Individual Assistance Registration Intake application 
process for smartphones. This initiative will direct mobile users to a 
version of DisasterAssistance.gov optimized for smartphones and will 
also provide an option for smartphone users to access the full 
DisasterAssistance.gov site.
    In addition, DAIP received one of five ``Best of NIEM'' awards for 
2009. The award was presented by the National Information Exchange 
Model (NIEM) Program Office. The awards are given to NIEM 
implementation projects that ``demonstrate how intergovernmental 
collaboration and innovative technology deliver results that increase 
government transparency, improve performance, and enable civic 
engagement.''
     DAIP was also recently selected as a finalist for the American 
Council for Technology (ACT) Intergovernmental Solutions Awards which 
recognizes Federal, State, and non-profit agencies that ``clearly 
demonstrate collaboration between two or more government agencies, and 
innovative use of technology to improve citizen service delivery.''
    Related to the efforts outlined above are the three major strategic 
initiatives FEMA launched last year. The first of these is a workforce 
development initiative creating a new approach to developing the 
agency's existing talent into future leaders, recruiting and hiring the 
best available talent, and strengthening the skill sets across the FEMA 
workforce in support of the agency's core mission. The next initiative 
is focused on improving existing catastrophic event preparedness 
through collaboration with partners, establishment of shared 
preparedness objectives across the Federal/State/local continuum, and 
strengthened efforts to plan for extreme events--the ``maximum of 
maximums''--including an increased focus on integrating the public as a 
resource and part of the solution for addressing the risks associated 
with large, complex events. Finally, FEMA has launched an effort to 
create capstone doctrine for the agency that will reflect 
organizational purpose, history, values, and guiding principles which 
will confirm for FEMA employees a common sense of purpose and guidance 
to govern agency activities.
    FEMA has also initiated efforts to strengthen the Nation's 
resilience to disasters by fostering an approach to emergency 
management based on the foundation of proactive engagement with 
neighborhood associations, businesses, schools, faith-based community 
groups, trade groups, fraternal organizations, ethnic centers, and 
other civic-minded organizations that can mobilize their networks to 
build community resilience and support local emergency management 
needs.
    As to how we will build on the successes we have had so far to 
address the challenges of the future, FEMA remains committed to 
regional empowerment as an overarching principle. In order to continue 
our progress in meeting that challenge, we have established five 
priorities for the years ahead. First, FEMA will continue to work to 
strengthen the Nation's resilience to disasters by fostering a National 
approach to emergency management built upon a foundation of proactive 
engagements with neighborhood associations, businesses, schools, faith-
based and trade groups, fraternal organizations, ethnic centers, and 
other civic minded organizations to build a community of resilience in 
support of local emergency management. Second, we will build greater 
unity of effort among the entire emergency management team. Third, we 
will implement a more robust, efficient and cost-effective Federal 
program to work with our State, local, private sector, community, and 
individual partners to meet the needs of citizens/survivors. Fourth, we 
will work with our partners to address our most significant risks. 
Finally, we will build, sustain, and improve FEMA's mission support and 
workforce capabilities.
Attachment.--Disaster Assistance Improvement Plan (DAIP) Partners
Department of Agriculture
Department of Commerce
Department of Defense
Department of Education
Department of Health and Human Services
Department of Homeland Security
Department of Housing and Urban Development
Department of the Interior
Department of Justice
Department of Labor
Department of State
Department of Transportation
Department of the Treasury
Department of Veterans Affairs
Office of Personnel Management
Small Business Administration
Social Security Administration

    Question 2. On March 16, 2010 the subcommittee held a hearing to 
discuss Regional Offices. While we agree that strengthening the Regions 
is critical, the committee wants to make sure that with this increase 
in responsibility comes an increase in resources.
    Does the budget request provide additional staff to the Regions 
and, if so, how many positions?
    If not, how do you intend to ensure the Regions are capable of 
assuming the new responsibilities you have delegated to them?
    Answer. The delegation of new authorities and responsibilities to 
the Regions will not impose additional personnel requirements to the 
agency as a whole and no additional personnel were requested in the 
fiscal year 2011 budget proposal. However, some personnel, budget, and 
mission support resources may need to be re-located to where the 
authorities are executed. At present, the FEMA Regions are leading the 
process to assess the types of positions that may be needed in any 
given area and to develop and propose Regional budgets to implement new 
and existing authorities in the Regions. FEMA is also in the process of 
analyzing and identifying existing vacancy positions at headquarters to 
determine what positions may need to be transitioned to the Regions. 
The number of positions to be transferred will depend upon precise 
requirements, but Deputy Administrator Serino has expressed a target 
goal to transition about 25 percent of the agency's current vacancies 
at headquarters to the Regions.
    FEMA will commence reallocating vacancies to the Regions once its 
recommendations have been approved. While the initial identification of 
these positions will be concluded prior to hurricane season, 
recruitment and hiring will take longer, and depend on various 
geographic factors.
    Question 3. Of the $1.1 billion requested for the Urban Area 
Security Initiative (UASI) grant, $200 million is set aside to 
reimburse local governments for security-costs resulting from terror-
related trials.
    Why was UASI chosen as the set-aside funding source for the terror-
related trials?
    Provided FEMA is appropriated the requested funds, will FEMA seek 
to reallocate the funds if the trials do not take place in civilian 
courts or in large metropolitan areas? If so, what account or programs 
would FEMA seek to reallocate the funding?
    Answer. The Urban Area Security Initiative funding request reflects 
a set-aside to be used in the event a trial was to be held in an urban 
area. The funding is consistent with Part IV, Section E (page 36) of 
the fiscal year 2010 Homeland Security Grant Program application and 
guidance kit, which includes language on National Special Security 
Events (NSSEs). Under ``Organizational Activities (SHSP and UASI 
only),'' it states the following, ``Section 2008 of the Homeland 
Security Act of 2002, as amended by the 9/11 Act, includes the 
following allowable activities:
  <bullet> Responding to an increase in the threat level under the 
        Homeland Security Advisory System, or needs resulting from a 
        National Special Security Event;
  <bullet> Establishing, enhancing, and staffing State and Major Urban 
        Area fusion centers;
  <bullet> Paying salaries and benefits for personnel to serve as 
        qualified intelligence analysts.''
    In planning for the possibility that trials do not take place in 
civilian courts or in large metropolitan areas, FEMA included ``up to'' 
language in its 2011 request. This language allows for any of the $200 
million not used for additional security costs involved in hosting 
terror-related trials to be included in the general UASI program. FEMA 
would have to request reprogramming authority from Congress to move the 
money from the UASI account to another account in the event the funding 
is not needed for NSSEs.
    Question 4. The Gulf Coast's long journey back from Hurricane 
Katrina demonstrates that the Nation needs a strong plan for 
coordinating community recovery efforts that clearly defines leadership 
roles. The National Disaster Recovery Framework is supposed to be that 
plan, but the committee is concerned that the draft Framework lacks 
clearly defined roles, responsibilities, and authorities for the 
Federal agencies involved, particularly FEMA.
    Why wasn't the role of FEMA or your position as administrator more 
clearly defined in the Recovery Framework?
    Do you expect clearer roles and responsibilities to be defined in 
the final Framework, particularly as it relates to FEMA?
    When do you anticipate the administration completing and publishing 
the final Framework?
    Answer. We will clearly define the roles and responsibilities in 
the National Disaster Recovery Framework of all key recovery agencies, 
including FEMA. We anticipate publishing the final Framework this 
summer, but recognize that the extraordinary demands of the Deep 
Horizon Oil Spill, the Tennessee flooding disaster, and other unknown 
events may alter that timeline.
Questions From Chairman Bennie G. Thompson of Mississippi for W. Craig 
                                 Fugate
    Question 1. The committee remains concerned that the Grants 
Directorate does not have the staff and resources to optimally manage 
the full suite of DHS grant programs. As a result, the Grants 
Directorate overly relies on contractors to perform inherently 
Governmental functions.
    What steps are you taking to make certain the Grants Directorate 
can meet its mandate to be the one-stop shop for all DHS grant 
programs?
    Answer. The Grant Programs Directorate (GPD) has worked extensively 
with the Human Capital Division to recruit and hire additional Federal 
staff and is working with the Office of Personnel Management on other 
hiring efficiencies. Additionally, GPD personnel have attended events 
such as the Presidential Management Fellow job fair to attract 
qualified job seekers to the agency.
    In addition, the following actions have been taken by FEMA and GPD 
leadership:
  <bullet> Concentrated efforts on personnel issues, for both 
        recruitment and retention (R&R);
  <bullet> Announced 18 vacancies May 7, 2010;
  <bullet> Announced remaining vacancies by May 17, 2010;
  <bullet> Introducing performance management culture with a focus on 
        developing and enhancing supervisory, managerial, and 
        leadership skills at all levels of organization;
  <bullet> After strategically examining resource requirements, GPD 
        will, as warranted, in-source current contractor positions as 
        current contracts expire;
  <bullet> Have developed short-term staffing plan to address 
        obligation of all fiscal year 2009 expiring funds;
  <bullet> Investigating use of USCG reservists to assist with PSGP;
  <bullet> Utilizing detailees from FEMA Regions;
  <bullet> Will solidify Mid/Long-term planning for R&R.
    Question 2. The National Flood Insurance Program (NFIP) has been 
conducting a multi-year project to re-examine flood zones by creating 
newer and more detailed digital flood maps. While the committee 
recognizes the importance of these new flood maps to help citizens 
protect their homes and businesses from potential flooding, these more 
detailed maps have also caused more individuals to be placed in flood 
zones than before.
    What steps is FEMA taking to make sure homeowners are aware of 
their change in flood risk?
    What type of recourse do localities or citizens have to challenge 
the new flood maps?
    Since an increase in flood risk often leads to much higher prices 
for flood insurance, has there been any thought on how homeowners, 
including senior citizens on fixed incomes and low-income households, 
could receive some form of help with these costs?
    Answer. FEMA conducted an assessment that determined, while some 
properties have been newly identified to be within the Special Flood 
Hazard Area (SFHA) (an area having no less than a 1 percent annual 
chance of flooding in any given year) based on newer science, in 
aggregate, more have been removed. Where FEMA has finalized maps, we 
estimate a net decrease of about 1 percent in the number of housing 
units in the SFHA.
    FEMA is required by law to publish notice of proposed map changes 
in two places: (1) The Federal Register and (2) a Predominant Local 
Newspaper. FEMA often exceeds those two legal requirements, 
particularly when the flood hazards are found to be much greater than 
widely known. In many cases we have additional meetings with local 
communities, ask the State to assist in outreach, contact media, and 
distribute press releases, hold public meetings, develop flyers, and 
more.
    In addition to these efforts, because the Federal Government does 
not have private property information or resources to contact 
individuals that might be impacted, FEMA also relies on its State and 
local counterparts to assist in getting the word out.
    In regard to what type of recourse do localities or citizens have 
to challenge the new flood maps, because conditions on the ground 
change over time, anyone can challenge a flood map at any time. FEMA 
has processes to incorporate more current or detailed data any time it 
becomes available. It is important to recognize that FEMA makes its 
maps based on data and science and therefore challenges to them need to 
also be based on data and science. Communities or individual homeowners 
may present this data through the map revision process at any time.
    In terms of a FEMA-initiated restudy for an area, FEMA is required 
by law to provide a 90-day appeal period for any proposed changes to 
flood elevations. Beyond that however, FEMA's mapping process from 
start to finish takes 2 to 3 years and is very open, transparent, and 
collaborative. Examples include meetings with local officials to kick 
the study off, where there is opportunity to shape the study before it 
starts, and meetings to present preliminary findings which provide an 
opportunity to challenge the results before the maps become final.
    Importantly, even after a particular map is final it can still be 
revised.
    FEMA is also engaged in a comprehensive effort to address the 
concerns of a wide array of stakeholders involved in an on-going 
dialogue about the National Flood Insurance Program (NFIP). The 
initiative is a multi-stage process designed to engage stakeholders and 
consider the largest breadth of public policy options. FEMA believes 
this important process will ensure the program can efficiently and 
effectively meet the needs of the public. The results of this analysis 
will inform future decisions regarding the NFIP.
    Question 3. According to a recent Inspector General report, an 
astonishing $16 billion in unspent monies still remains at FEMA for 744 
unclosed disasters. The report indicates that delays are largely 
attributable to a shortage of regional staff and a lack of uniform 
close-out standards and centralized leadership at FEMA. The report 
indicates that FEMA agreed with the IG's recommendations and 
established a working group in November to address the close-out 
delays.
    Can you please explain what FEMA's plan is for closing out the 
disasters and the progress the working group has made to date on 
disaster close-out?
    To what extent does the working group seek input from and involve 
senior Regional officials?
    Answer. As of April 30, 2010, there were 882 open FEMA-State 
Agreements (FSAs), including Major Disaster (DR), Emergency (EM), and 
Fire Management Assistance (FS/FMA) declarations since 1989. This 
includes declarations made in the current fiscal year.
    The FEMA administrator launched an initiative in October 2009 to 
expedite the closure of older disasters. The Disaster Closeout 
Initiative includes disasters (``DRs'') declared in fiscal year 2002 
and prior years as well as EM/FS/FMAs declared in fiscal year 2007 and 
prior years. The number of open FSAs under the initiative's timeframe 
was 357 on October 1, 2009, and was 292 as of April 30, 2010 (in other 
words, 65 FSAs, or 18 percent of the open FSAs, have been closed to 
date in fiscal year 2010). The un-liquidated obligations (ULOs) 
associated with open disasters is less than $500 million, excluding a 
$2.2 billion ULO associated with an Interagency Agreement (IAA) with 
DOT/FTA to support rebuilding of the lower Manhattan transportation 
infrastructure as a result of the 9/11 terrorist attacks. With that 
exception, FEMA plans to liquidate the majority of the remaining ULOs 
by the end of fiscal year 2010.
    The administrator directed the FEMA Chief Financial Officer (CFO) 
to establish a Disaster Closeout Workgroup and designate a senior 
official to coordinate this effort. The Disaster Closeout Workgroup has 
membership from all FEMA Regional Offices and headquarters program and 
staff offices. The CFO issued guidance in January 2010 to the Regional 
administrators to conduct a thorough review of the open older disasters 
and provide target dates for closure of their open FSAs to the OCFO by 
April 1, 2010.
    The Regional administrators submitted assessments of their open 
FSAs and proposed target closure dates (by fiscal year quarter) for 
each of their open disasters. The Regions have targeted the closure of 
an additional 164 disasters in fiscal year 2010 resulting in a 64 
percent reduction in open older disasters. The remaining 128 older open 
disasters will be closed in fiscal year 2011 except for a handful of 
disasters that have extended Public Assistance and/or Hazard Mitigation 
permanent projects to be completed. The Regions also identified on-
going activities holding up immediate closeout as well as systemic 
issues that need to be addressed agency-wide. The OCFO, through the 
Disaster Closeout Workgroup, is assisting the regions with closeout 
activities to deal with issues that are impeding closeout. Improvements 
to the closeout process as a result of this initiative will be applied 
to the entire universe of open disasters across FEMA.
    The Regional administrators were given authority in April 2009 to 
establish and fill temporary CORE positions that are performing 
disaster-related work, including closeout activities. Most of the 
regional offices have utilized this authority to add additional 
closeout staff.
    A collateral goal of the closeout initiative is to identify and de-
obligate all ULOs associated with the older disasters. To date, the 
amount of funds de-obligated and returned to the Disaster Relief Fund 
under this initiative in fiscal year 2010 is over $350 million. In 
addition, a dedicated team of Office of Chief Procurement Officer and 
OCFO staff recently de-obligated $443 million associated with 514 open 
contracts in less than 4 weeks. The CFO also issued a CFO Directive in 
June 2009 on Managing Open Obligations to require quarterly reviews and 
annual certification of open obligations by all HQ and regional 
offices. The OCFO will continue this focused effort to review and de-
obligate all invalid obligations.
 Questions From Ranking Member Peter T. King of New York for W. Craig 
                                 Fugate
    Question 1. The President's fiscal year 2011 budget request cuts 
Firefighter Assistance Grants by $200 million, or 25 percent from last 
year. This proposed cut ignores the on-going needs of fire departments 
around the country and the serious budget crises that these departments 
continue to face.
    Why was the decision made to cut funding for this important 
program?
    Did FEMA consider the significant need for such funding, as 
demonstrated by over $3 billion in applications in a single year, or 
the strong effectiveness of the program as reported by the Office of 
Management and Budget?
    Did FEMA consider the on-going budget constraints at the local 
level when determining an appropriate funding level for the program?
    Answer. The fiscal year 2011 budget request is $20 million higher 
than last year's request, and is higher than any of the Department's 
last five budget requests for Firefighter Assistance Grants. In 
addition, over $850 million has been awarded to fire departments but 
remains unspent. While this unexpended balance is high, it should be 
noted that it does not even include the $810 million appropriated to 
Firefighter Assistance Grants in fiscal year 2010 that have yet to be 
awarded. Based on these figures, FEMA feels that the $610 million 
requested for fiscal year 2011 is appropriate.
    Regardless of the funding level, FEMA continues to address 
programmatic issues identified by stakeholder groups. Of critical 
importance to our fire service partners, we have significantly expanded 
eligibility for our fire programs such as the Staffing for Adequate 
Fire and Emergency Response (SAFER) grant, making it much easier for 
local departments to put these security dollars to work quickly to 
bring back laid-off firefighters and retain their current forces. 
Moreover, we changed the 4-year term of SAFER grants to 2 years, giving 
departments much more flexibility in the short term; eliminated the 
$100,000 per position cap, enabling departments to retain veteran 
firefighters and maximize their funding across their workforce; 
eliminated the local match; and allowed departments to keep SAFER 
funding during normal attrition (previously they had to return the 
funding).
    Question 2. Most experts agree that if the trial for Khalid Sheik 
Mohammed is held in a highly populated area, it will become a prime 
target for a terrorist attack.
    Has the FEMA administrator been involved in contingency planning 
for any terror trial?
    Answer. As the lead Federal agency for consequence management, FEMA 
is responsible for ensuring that the Nation works together at all 
levels to build, sustain, and improve the capability to plan and 
prepare for, protect against, respond to, recover from, and mitigate 
the consequences of all hazards disasters. This would include providing 
all-hazards planning support and supporting State and local governments 
during a terror trial, and if requested, to manage the consequences of 
a disaster event that overwhelms their capabilities to respond. FEMA 
also manages a network of operations centers and information-sharing 
capabilities with all levels of government around the clock 365 days/
year. This capability allows the agency to closely interact with and 
provide internal and external stakeholders a consolidated, consistent, 
and accurate status of responses to on-going incidents and to monitor 
evolving or potential events to be prepared to manage any consequences 
that may ensue.
    Question 3. I am concerned that your budget proposal for the UASI 
program includes up to $200 million for terror-trial security. I, along 
with many other Members of Congress, oppose importing terrorists to the 
United States for trial in civilian courts. Beyond the funding request 
for terror trials, the budget proposal includes a minimal increase for 
UASI of only $13 million.
    What is your justification for including up to $200 million for 
terror-trial security?
    How did the administration arrive at this figure when it currently 
does not have a plan for such trials?
    Don't you think that if the administration did not impose civilian 
trials of terrorists on local communities, that cities would be better 
able to use the $200 million in UASI funding to meet their current and 
specific homeland security needs?
    Answer. The UASI funding request represents a set-aside to be used 
in the event a trial was to be held in an urban area. The funding is 
consistent with Part IV, Section E (page 36) of the fiscal year 2010 
Homeland Security Grant Program application and guidance kit, which 
includes language on National Special Security Events (NSSEs). Under 
``Organizational Activities (SHSP and UASI only),'' it states the 
following, ``Section 2008 of the Homeland Security Act of 2002, as 
amended by the 9/11 Act, includes the following allowable activities:
  <bullet> Responding to an increase in the threat level under the 
        Homeland Security Advisory System, or needs resulting from a 
        National Special Security Event;
  <bullet> Establishing, enhancing, and staffing State and Major Urban 
        Area fusion centers;
  <bullet> Paying salaries and benefits for personnel to serve as 
        qualified intelligence analysts.
    In planning for the possibility that trials do not take place in 
civilian courts or in large metropolitan areas, FEMA included ``up to'' 
language in its 2011 request. This language allows for any of the $200 
million not used for additional security costs involved in hosting 
terror-related trials to be included in the general UASI program. FEMA 
would have to request reprogramming authority from Congress to move the 
money from the UASI account to another account in the event the funding 
is not needed for NSSEs.
    Question 4. In preparation for this year's hurricane season, what 
type of joint planning activities is FEMA conducting with other 
Department of Homeland Security components, such as the U.S. Coast 
Guard?
    How have these joint activities strengthened FEMA's overall 
preparedness and response capabilities?
    How can Federal, State, and local governments measure whether they 
have increased overall preparedness capabilities?
    Answer. The FEMA 2009 Hurricane Concept of Operations document 
(CONOPS) is the interagency disaster response document that will be 
used to coordinate response activities during the upcoming hurricane 
season. After a review of the events of last year's hurricane season, 
it was determined that no changes to the existing CONOPS were needed. 
FEMA recently participated in the Region IV Tri-state Hurricane 
Exercise in Florida, Georgia, and Alabama in May and is facilitating 
the following National and regional level hurricane exercises with DHS 
components and interagency partners: the DHS Senior Leader Hurricane 
Facilitated Discussion; the Emergency Support Function Leadership Group 
(ESFLG) TTX; and the 2010 FEMA HQ Hurricane Plan Seminar and Execution 
Workshop. FEMA's overall preparedness and response capabilities have 
been strengthened through interagency and intra-agency exercises and 
planning activities. In addition, preparations such as pre-identifying 
key leadership positions including the Federal Coordinating Officers, 
the Defense Coordinating Officers, the Senior Health Officials, and the 
State Coordinating Officers; organizing Incident Management Assistance 
Teams available to deploy to link up with States to initiate the 
coordination of the Federal response; encouraging early decisions to 
facilitate action on pre-disaster emergency declaration requests and 
evacuation and sheltering; and exercising with other DHS components 
such as the Transportation Security Administration, U.S. Customs and 
Border Protection and the U.S. Coast Guard, and the States have also 
strengthened overall preparedness and response capabilities.
    Additionally, the Office of Infrastructure Protection (IP) within 
the National Protection and Programs Directorate (NPPD) works closely 
with FEMA before and during hurricane season. For instance, IP 
identifies the most critical infrastructure pre- and post-landfall to 
prioritize restoration efforts and identify cascading impacts from 
hurricane-damaged infrastructure. This work includes extensive analysis 
involving National Laboratories, on-the-ground assessments, and 
geospatial production. IP's Protective Security Advisors serve as 
Infrastructure Liaisons in the FEMA Joint Field Office during 
incidents, including hurricane strikes. And, IP maintains a permanent 
liaison at FEMA's headquarters operation center and provides 24/7 
coverage during hurricane response.
    The National Communications System (NCS), which resides within 
NPPD's Office of Cyber Security and Communications, has worked with 
FEMA Regions 4 and 6 and the regional, State, and local planners to 
strengthen awareness of communications planning for restoration and 
reconstitution of communications critical infrastructure. FEMA and the 
NCS partnered to ensure that personnel identified to respond to ESF-2 
(Communications) activations were appropriately trained and prepared.
    FEMA also coordinates regularly with the NPPD's Federal Protective 
Service (FPS) to provide disaster facility and force protection after 
hurricanes and other disasters. FEMA and FPS conduct operational and 
tactical planning sessions for each declared emergency for deployment 
of FPS law enforcement officers to establish security at disaster 
facilities, and to protect disasters relief assets. FEMA has also 
identified an FPS Disaster Liaison Officer through strategic planning 
sessions conducted to review capabilities and recognize challenges.
    Measuring preparedness is a cyclical and continuous process, and 
starts with the identification and assessment of the entity or 
jurisdiction's threats and hazards. After that, an entity/jurisdiction 
must do a few fundamental things as they assess their levels of 
preparedness.
  <bullet> Assess the hurricane threat for your community.
  <bullet> Assess the existing capabilities to address this threat.
  <bullet> Determine the capabilities needed to fully and effectively 
        address the threat.
  <bullet> Determine the gaps between existing capabilities and the 
        capabilities needed to fully and effectively address the 
        threat.
  <bullet> As funding allows, close the gaps.
  <bullet> Conduct training and exercise programs, capture results in 
        After Action Reports (AAR), and then further refine your 
        capabilities.
    Question 5. I would like to thank FEMA for the critical assistance 
that was recently approved for Nassau and Suffolk Counties following 
the devastating Nor'easter that hit Long Island in March.
    Can you provide a status update as to what level of assistance will 
be provided under the President's disaster declaration and how quickly 
Federal funds will be made available?
    Answer. The Presidentially-declared disaster (FEMA-NY-1989) 
authorized FEMA to provide all categories of Public Assistance (PA) in 
the designated areas. Following the Presidential declaration, an 
Applicants' Briefing is conducted by a representative of the State for 
all potential Applicants for PA grants. This Briefing was held on May 
7. Upon identifying potential Applicants, the Applicant, FEMA, and the 
State participate in a Kickoff Meeting. This meeting is a project-
oriented meeting which provides the Applicant with a more detailed 
review of the PA program and focuses on eligibility and documentation 
requirements. The Kickoff Meeting is the starting point of the PA 
process and is also the marker for key deadlines. Kickoff Meetings have 
been held in Suffolk County, and the rest of the affected areas of New 
York, throughout the month of May, and most have been completed at this 
time. Following the Kickoff Meeting, the Applicant, FEMA, and the State 
begin the process of identifying and formulating projects. Once 
formulated projects are approved, funding can be made via the State 
(grantee) to the Applicant (sub-grantee) for use in completing 
projects. The availability of funds is directly related to the 
complexity of project submitted. This process is currently underway. 
FEMA's regulations indicate that the project completion deadline for 
emergency work (debris removal and emergency protective measures) is 6 
months from the date of the declaration. The project completion 
deadline for permanent restoration work is 18 months. Extensions may be 
made by the State and by FEMA if necessary based on extenuating 
circumstances.
    Question 6. It is my understanding that a preliminary audit finding 
by FEMA related to the City of Buffalo's response on the ``October 
Surprise'' storm of 2006 may lead to the financially-strapped city 
being forced to repay $3.9 million to the Federal Government because 
your agency determined that the city overspent for the removal of storm 
debris. I am concerned that the methodology used to arrive at this 
conclusion is faulty because it directly compares the removal costs in 
an urban environment to those incurred in the neighboring suburbs.
    Not only are there major complicating factors to performing these 
tasks in a city, but in this case a lower cost was secured by Buffalo's 
suburban neighbors by delaying their response by a week. Such a delay 
was not a feasible option in Western New York's medical, emergency 
services, and governmental center.
    Therefore, what is your view on whether the most reasonable 
response to this situation would be to end this inquiry based on the 
fact that Federal regulations allow for flexibility in awarding grants 
when ``the public exigency or emergency . . . will not permit a delay'' 
(44 CFR 13.36(d)(4))? If you disagree, please explain.
    Please also provide the committee with a report on the status of 
FEMA's review of this situation.
    Answer. The City of Buffalo was audited, and we are awaiting a 
final report from the DHS OIG on this matter before making any 
decisions. FEMA will provide a report to the committee after the final 
OIG report is received and reviewed.
    Question 7. The President's fiscal year 2011 budget requests $28 
million for the Urban Search and Rescue System, which is a $4.5 million 
cut from last year's enacted level. Some Urban Search and Rescue teams 
have already suggested that their operational costs are even higher 
than the funding level provided last year.
    We all recognize and appreciate the vital role these teams play, 
evidenced most recently by their important work in Haiti following the 
devastating earthquake there earlier this year. Given these realities, 
why is the Urban Search and Rescue program request lower in fiscal year 
2011?
    How many Urban Search and Rescue Teams exist currently?
    Does FEMA have any plans to expand and strengthen Urban Search and 
Rescue with additional resources in the future?
    Answer. The fiscal year 2011 budget request for Urban Search and 
Rescue (US&R) is the same as the fiscal year 2010 budget request. 
Currently there are 28 FEMA-sponsored National US&R teams strategically 
located across the country. Additionally, a roughly equal number of 
State and local-sponsored US&R teams exist that may be available to 
assist the impacted States through the EMAC mechanism.
    As stated in the fiscal year 2009 Report to Congress titled 
``Feasibility of Additional Urban Search and Rescue Task Forces,'' 
dated June 30, 2009, based on the National Program Office review and 
analysis, the current 28 National US&R Task Forces are sufficient to 
provide adequate coverage and capability to respond to the search and 
rescue needs of the Nation. Increasing their number would dilute the 
available funding and impede on-going enhancement efforts. FEMA will 
continue to focus on maintaining and improving the capabilities and 
functionality of the existing Task Forces.
  Questions From Honorable William L. Owens of New York for W. Craig 
                                 Fugate
    Question 1. Northern border communities have historically 
benefitted from Operation Stonegarden, and in fiscal year 2009 six 
counties in my district and the St. Regis Mohawk Tribe received funding 
awards. The President's budget proposal for fiscal year 2011, which 
requests setting aside $50 million for Operation Stonegarden, would 
restrict eligibility for the grant program to States along the 
Southwest Border.
    I recently sent a letter along with four of my colleagues from the 
New York delegation to the Homeland Security Appropriations Committee 
to request that this funding for northern Border States be reinstated. 
We believe this shift in funding fails to recognize the illegal 
activities along the northern border that present a serious threat to 
our National security. New York's northern border alone has eight 
bridges with points of entry and there have been numerous reports of 
criminal networks using certain tribal lands along New York's northern 
border to conduct illegal activity, including the smuggling of people, 
illegal drugs, and political terrorists.
    To that end, I recently introduced legislation with Senator Schumer 
calling on the Office of National Drug Control Policy (ONDCP) to work 
with the Secretary of Homeland Security to develop a northern border 
counternarcotics strategy.
    Please explain the agency's thinking with respect to why these 
funds are being shifted away from northern border communities at a time 
of such critical need.
    Answer. In determining funding allocations for Operation 
Stonegarden (OPSG), the Department considers all information available 
regarding eligible communities. OPSG was initially established as a 
separate grant program in fiscal year 2006, and targeted only the four 
southwest border States. While eligibility for OPSG has expanded over 
the past several years, the emphasis remained along the southwest 
border with over 75 percent of the fiscal year 2009 OPSG allocation and 
100 percent of the fiscal year 2009 supplemental funding for OPSG being 
awarded to the southwest border States.
    The southwest border is a dynamic operational environment that 
represents about 80 percent of the enforcement activity volume that CBP 
faces on a year-to-year basis. Mexican drug cartel-related violence 
continues to represent a serious threat to the National security of the 
United States as well as to the U.S. citizens that live along our 
southwest border. As a result, the President's budget proposal for 
fiscal year 2011 reflects a renewed emphasis on enhancing border 
security efforts along the southwest border. However, other sources of 
funding, such as the State Homeland Security Program (SHSP), remain 
available to all States to support border security-related efforts.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
